<html>
<title> - ISLAMIST MILITANT THREATS TO EURASIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                  ISLAMIST MILITANT THREATS TO EURASIA

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2013

                               __________

                            Serial No. 113-5

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

79-581 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Assistant Secretary, Bureau of 
  South and Central Asian Affairs, U.S. Department of State......     9
Mr. Justin Siberell, Deputy Coordinator for Regional Affairs and 
  Programs, Bureau of Counterterrorism, U.S. Department of State.    18
Ariel Cohen, Ph.D., senior research fellow for Russian and 
  Eurasian Studies, The Heritage Foundation......................    37
Mr. Jacob Zenn, research analyst, The Jamestown Foundation.......    48
Mr. Nathan Barrick, strategic consultant, CLI Solutions..........    71
Stephen J. Blank, Ph.D., research professor of National Security 
  Affairs, U.S. Army War College.................................    76

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Prepared statement..............     3
The Honorable Robert O. Blake: Prepared statement................    11
Mr. Justin Siberell: Prepared statement..........................    20
Ariel Cohen, Ph.D.: Prepared statement...........................    39
Mr. Jacob Zenn: Prepared statement...............................    51
Mr. Nathan Barrick: Prepared statement...........................    73
Stephen J. Blank, Ph.D.: Prepared statement......................    78

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101

 
                  ISLAMIST MILITANT THREATS TO EURASIA

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                       House of Representatives,

       Subcommittee on Europe, Eurasia, and Emerging Threats and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 1 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher and Hon. Ted Poe (chairmen of the subcommittees) 
presiding.
    Mr. Rohrabacher. This hearing of the joint subcommittees of 
the Foreign Affairs Committee will be called to order. And I 
call to order this joint hearing. It is of both Europe, 
Eurasia, and Emerging Threats, and the Subcommittee on 
Terrorism, Nonproliferation, and Trade. Now let me see what we 
have got here, okay.
    After Chairman Poe of the Subcommittee on Terrorism, 
Nonproliferation, and Trade and I, and the ranking members of 
each subcommittee, Mr. Keating and Mr. Sherman, after we each 
take 5 minutes to make our opening remarks, each member will 
have 1 minute to make an opening statement, alternating between 
the majority and minority members. And without objection, all 
members may have 5 days to submit statements, questions, and 
extraneous material for the record subject to the length 
limitation in the rules, and hearing no objection, so ordered.
    This is essentially a hearing about terrorism and how to 
fight it, so it is relevant to bring up the plight of Dr. 
Afridi. With the understanding of my colleagues and those that 
have come to hear this hearing, Dr. Afridi is the man who 
confirmed the location of Osama bin Laden in his Pakistani safe 
house. Defense Secretary Panetta said Dr. Afridi played a 
pivotal role in making it possible for our Special Forces to 
administer justice to bin Laden for his role in plotting the 
massacre of 3,000 Americans on 9/11.
    Pakistan gave this mass murderer safe haven. Dr. Afridi, a 
Pakistani physician, risked his life so justice could be done. 
Then we left him behind, and this hero is now sitting in a 
Pakistani prison. Dr. Afridi has been tortured, and his family 
threatened. Those are hostile acts by Pakistan against the 
United States, and belie the notion that Pakistan is an ally of 
ours in the war against terrorism.
    So I would hope our Assistant Secretary Blake, I hope he 
takes back to Foggy Bottom, the message of the American people 
that the State Department needs to get Dr. Afridi released from 
prison using whatever pressure on Pakistan is needed. We cannot 
defeat terrorism in Eurasia or anywhere else if we cannot 
recruit allies. And we are never going to be able to recruit 
allies if we betray those who side with us against this 
ferocious and horrible enemy that all of us in humankind face 
of radical Islamic terrorism, and yes, other forms of terrorism 
as well.
    Since September 11, 2001 terrorist attacks in the United 
States, American policy toward the Central Asian states has 
aimed basically at facilitating their cooperation with the 
United States and NATO stabilization efforts in Afghanistan. 
The level of cooperation by the Government of Uzbekistan, 
Kyrgyzstan, Tajikistan, their level of cooperation with these 
three governments has been outstanding since 9/11. There has 
even been a respectable level of cooperation with Russia in 
Afghanistan and in other regional hotspots.
    During most of this period, terrorism in Central Asia was 
kept to a minimum. However, since 2010 there has been an 
increase in violence by Islamic militants in Central Asia. A 
closer look at security risks in the region north of 
Afghanistan is long overdue, and it is imperative as we move to 
a U.S. pullout of troops by 2014 that we focus on what that 
will result in, in those countries just north of Afghanistan.
    The point of today's hearing is to examine what efforts the 
United States is making to keep Central Asia stable and to 
improve relations with the states in the region. That means 
helping out our friends, and yes, remember those, by helping 
the enemy of our enemies we are conducting ourselves in the 
most efficient way of providing defense for our own people.
    Just 2 days ago, a congressional delegation led by myself 
and including Mr. Poe returned from the region. The members of 
the codel were impressed with the commitment of the Uzbek 
Government to work with the United States to thwart the 
catastrophic consequences of the Taliban retaking power in 
Afghanistan. We were also impressed that there are brave forces 
anxious to fight and defeat radical Islam in that area. For 
example, there is the MEK whose leaders we met in France that 
stands vulnerable, yet it is willing to do what it can to 
resist the Mullah dictatorship in Iran.
    The Baloch National Insurgency, whose representatives we 
met in London, were dedicated and courageous people who are 
under fire in Iran and Pakistan, both terrorist supporting 
regimes also that repress, they not only threaten their 
neighbors but threaten their own people in the name of militant 
Islam. In short, radical Islam threatens us all. We should be 
supplying those courageous opponents of those who threaten us.
    [The prepared statement of Mr. Rohrabacher follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. With that said, I would now turn to the 
chairman of the Terrorism subcommittee, Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    The Islamic Jihad Union may be the most dangerous of all 
Islamic militant groups in Central Asia. In 2004, they 
coordinated three nearly simultaneous suicide bombings outside 
the United States in Israeli Embassies and the headquarters of 
the Uzbek chief prosecutor in Tashkent, the capital of 
Uzbekistan. They killed Uzbeks and one Israeli Embassy security 
guard and another personal security guard of the Israeli 
Ambassador.
    IJU is typical of terrorist groups in the region. They want 
to establish Islamic rule in the region, and they want to 
institute Sharia law, ban music, and have second class 
citizenship for all non-Muslims, and women. They have close 
ties to al-Qaeda and northern Afghanistan and the safe havens 
of Pakistan. They train with al-Qaeda. They live with al-Qaeda, 
and they even get funding from al-Qaeda. If they had it their 
way, they would take over Central Asia just like the Taliban 
went into Afghanistan. The issue is, can they? Will they 
overthrow the governments of Central Asia and establish Islamic 
rule? That is one of our questions today.
    Up until this point, the governments of the region have 
been successful in pushing them out of the region and into 
Afghanistan and even Pakistan. However, my opinion is that some 
of these groups left on their own because they wanted to gain 
more skills, learn how to fight and be better terrorists, if we 
can use that phrase. Has the fighting and training in 
Afghanistan actually made them stronger?
    Afghanistan, in my opinion, is in all kinds of trouble. It 
seems that Pakistan can't wait to cause more instability in 
Afghanistan after our troops are gone. Pakistan is already a 
safe haven to militant groups in Pakistan. We can expect them 
to do the same in Afghanistan. This is another reason we ought 
to be cutting off funding to Pakistan. We don't need to pay 
them to hate us. They will do it for free. If the Taliban 
emerges to control substantial portions of Afghanistan, then 
groups could be ``golden boys'' of the jihad movement and get 
substantial funding and training. I am talking about the IMU 
and the IJU. These groups are growing and evolving with the 
times.
    Reportedly, they have gotten involved in drug trafficking 
on the borders of Afghanistan. The porous borders and corrupt 
government officials mean truckloads of drugs drive across the 
Afghan border into Central Asia almost every day. According to 
the United Nations, up to 80 tons of heroin and 20 tons of 
opium are smuggled through Tajikistan's 835-mile border with 
Afghanistan on a yearly basis.
    These groups are not just running drugs across the border, 
they are taking over towns. One of the larger terrorist groups, 
Hizb ut-Tahrir, is imitating Hezbollah and starting to provide 
social services in remote towns that feel neglected by their 
central government. And much like Hezbollah in Lebanon, they 
are winning over the people.
    The IJU is using Twitter, or at least trying to. In 
January, the IJU established two Twitter accounts only to have 
them suspended by Twitter. Twitter, in my opinion, of course 
was following the law. The IJU was designated as a foreign 
terrorist organization by the State Department on June 17th, 
2005. Section 219 of the Immigration and Nationality Act states 
that it is unlawful to provide a designated FTO with ``material 
support or resources, including property, tangible or 
intangible services, and among them communication equipment and 
facilities.''
    After I and six other Members of Congress raised this issue 
with the Department of Justice in September, Twitter finally 
took down the Somali terrorist group Al-Shabaab's account in 
January. There is no reason why Twitter should not consistently 
follow the law, take down two other officially recognized 
foreign terrorist organizations, Hamas and Hezbollah, who began 
tweeting in 2009 and 2011. More and more terrorist groups are 
recognizing the value of using Twitter as a tool to spread its 
recruiting and its ideological concepts.
    Terrorist groups like those in Central Asia and around the 
world are not going away, they don't want to go away, and they 
are going to continue to grow. We need to see the obvious. We 
cannot be taken by surprise. We must be prepared now and deal 
with terrorism wherever it raises its head. And I yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor. Next we 
have the ranking member on our Eurasian subcommittee, 
Representative Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman, for holding this 
hearing. It is timely and we look forward to it. This is our 
first subcommittee together, and I would like to make note that 
I very much look forward to working with you and all the 
members on a large number of interesting topics.
    In regards to today's hearing, as the International 
Security Assistance Force in Afghanistan prepares to drawdown 
in 2014, the question of stability and security in Central Asia 
is crucially important, not only for our region, but also for 
U.S. policy. I believe that we face an immensely complex, yet 
long overdue task of bringing our troops home safely, and we 
must further work with our allies to mitigate potential 
instability and spillover effects of the drawdown to the 
neighboring countries there.
    Needless to say, even though the expected drawdown will 
occur, I believe that Afghanistan will remain one of our 
central international challenges. To that effect, Central Asia 
will play a crucial role in retrograde operations. It has been 
no simple task for these nations to support the United States 
through Operation Enduring Freedom and beyond. They are 
concerned with their domestic unrest and rising extremism 
within their own borders. But ultimately, they too have much to 
gain from a sustained partnership with the U.S.
    At the forefront of these benefits rest the 
administration's vision of expanding the Northern Distribution 
Network into a viable conduit for interregional trade between 
Central Asian states and a wider global community. I look 
forward to hearing from all of you in regards to this 
testimony. And additionally, I believe the U.S. engagement 
provides Central Asia states with an opportunity to strengthen 
their respective governance structures in their own rule of 
law, so that the full economic potential of the region and its 
people can be realized.
    Currently, the U.S. faces a serious policy dilemma in how 
some of the governments have chosen to weed extremists or 
militants out through authoritarian rule. As we have seen in 
countless examples, most recently throughout the Arab world, 
authoritarian techniques breed resentment, resistance, and at 
times, violent insurgencies. This is a vicious cycle and we 
will have to figure a way to work with our Central Asian 
partners to break it.
    I particularly want to point out that labeling any form of 
dissent or opposition to current governments as ``terrorism'' 
can be, in instances, a particularly unhelpful approach. There 
is a very real terrorist threat within the region and blurring 
the lines and definitions will only serve to aid recruitment 
and to increase potential violence.
    I am troubled by the lack of freedom of expression and 
information in Central Asian republics. On a recent trip to the 
region, members of the congressional delegation were not able 
to access the Web sites of Radio Free Europe/Radio Liberty, 
EurasiaNet, Freedom House, Transparency International, Amnesty 
International, and a host of other acclaimed informational 
sources that work well internationally.
    In this regard, I would suggest that U.S. security 
assistance to the region should be reviewed under this context, 
and further aid should be contingent upon further democratic 
improvement. If political, economic and human rights reforms do 
not take place in Central Asian republics, I fear that the 
region will not be able to attract investments or create jobs 
needed to secure stability. This, in turn, increases the 
potential of the nonviable, ungovernable and, in fact, 
illegitimate states.
    The U.S. and Central Asia share a mutual interest in the 
security of the region. It is important that we work together 
for these goals. And I look forward to hearing our witnesses. I 
am particularly interested, since I know that Secretary Blake, 
you testified yesterday and I appreciate coming forth today, 
your vigor in this situation to once again make yourself 
available. And with that I yield back my time, Mr. Chairman.
    Mr. Rohrabacher. Thank you very much for that very 
thoughtful opening statement. And now we have Brad Sherman who 
is the ranking member on the Terrorism subcommittee.
    Mr. Sherman. America has focused its attention on Iraq and 
Afghanistan. That is where our troops were deployed. But the 
worldwide war on terrorism is both wide in scope and 
unfortunately long in duration. Just a few months ago Americans 
became aware of Mali, and I want to commend my colleagues for 
holding these hearings as we focus on a number of areas that 
may turn out to be just as important as Iraq and Afghanistan in 
our efforts to deal with extremist Islamic terrorism.
    We are dealing with an area of the world where the borders 
were drawn by Joseph Stalin, first as minister for minorities 
in the Soviet Government and then as the ruler of the Soviet 
Union. In Africa, various illogical borders are now sacrosanct. 
They were drawn by Europeans mostly out of ignorance and 
happenstance and chance. And those borders split ethnic groups 
while linking other ethnic groups together in nation states 
that are still struggling and gradually developing their own 
national identity.
    With Stalin there was nothing by happenstance or chance. He 
deliberately divided and grouped ethnic groups in Central Asia 
and also in the Caucasus so as to make it difficult for these 
republics to ever be independent or to ever function 
effectively. Just for example, the Fergana Valley is divided 
among three different countries, Kyrgyzstan, Tajikistan and 
Uzbekistan. We see in Tajikistan, Uzbeks making up about a 
quarter of the population, all in an effort to make it 
impossible to do what now has to be done and that is have 
effective independent republics in Central Asia.
    And we have a number of terrorist organizations including 
the Islamic Movement of Uzbekistan, which has been active in 
Central Asia, operating with the Taliban even before 9/11. It 
is an offshoot of the Islamic Movement of Uzbekistan. The 
Islamic Jihad Union is a terrorist organization that has 
conducted attacks not only in Uzbekistan, but Afghanistan and 
even Europe.
    We need to cooperate with our Central Asian allies in 
dealing with terrorism. One of the dilemmas the U.S. faces in 
Central Asia is that several of those states have poor human 
rights records. Terrorism is used to justify these human rights 
abuses, but all too often they are not against terrorists but 
rather against political opponents. Kyrgyzstan, Kazakhstan, 
Tajikistan and Uzbekistan have provided major logistical 
support for our coalition forces in Afghanistan and that is to 
be appreciated.
    Then we focus on the Uighers in northwest China. These are 
a Turkic-Central Asian people living in an autonomous region. 
I, in the past, have said I believe in a One China, One Taiwan 
policy. One wonders whether we will support a one Tibet and 
then a one East Turkestan policy. We have to get along with 
China, and perhaps dismembering their country in such a greater 
respect or at least advocating such dismemberment may not put 
the negotiations on the right foot. Still we have to advocate 
that the Uighers are treated fairly. It is an autonomous region 
that deserves that level of autonomy, and every ethnic group 
deserves to be treated fairly. And America's voice on behalf of 
human rights needs to be loud, even if we are dealing with a 
country that owns almost as much U.S. debt as one can imagine. 
I yield back.
    Mr. Rohrabacher. Thank you very much, Mr. Sherman. The only 
one of our members who will be taking advantage of their 1-
minute opening statement is Congressman Yoho of Florida who is 
a member of the Terrorist subcommitee. You are recognized for 1 
minute.
    Mr. Yoho. Thank you to the chairs and the ranking members 
of the respective subcommittees for holding this hearing. 
Hearings like this give us the opportunity to have some 
accountability and transparency to how our tax dollars are 
being spent, and to examine if our efforts in Central Asia are 
worthwhile pursuits, which I believe they are. I look forward 
to the testimonies of the witnesses today, and hearing their 
thoughts and reading them in the record, because I am going to 
have to leave here in a little bit. Thank you.
    Mr. Rohrabacher. Well, thank you very much for that very 
succinct 1-minute opening statement. We will have two panels of 
witnesses this afternoon. On our first panel we have Robert 
Blake, the Assistant Secretary for South and Central Asian 
Affairs. As was noted earlier, he testified just yesterday and 
we appreciate that, your more than cooperative efforts on 
working with the Hill. He was appointed in May 2009 as 
Assistant Secretary, and he oversees U.S. foreign policy with 
India, Bangladesh, Sri Lanka, Nepal, the Maldives, Bhutan, 
Kazakhstan, Uzbekistan, and then Kuryakistan, which I am not 
pronouncing right, Turkmenistan and Tajikistan. He previously 
served as Ambassador to Sri Lanka and the Maldives. And from 
2006 to mid-2009 he was the Ambassador there, and then Deputy 
Chief of Mission at the U.S. Mission in New Delhi, India, from 
2003 to 2006. Mr. Blake earned a B.A. from Harvard College--is 
that Harvard University or Harvard College, one of those two--
in 1980, and a Masters Degree in International Relations from 
Johns Hopkins School of Advanced International Studies in 1984.
    Also with us is Justin Siberell, the Deputy Coordinator for 
Regional Affairs and Programs at the Bureau of Counterterrorism 
at the Department of State. He joined the State Department 
Foreign Service in March 1993, and assumed this position in 
July 2012. Mr. Siberell was most recently Consul General for 
Dubai and the United Arab Emirates. Overseas assignments 
includes service at U.S. Embassies and consulates in Baghdad, 
Iraq; Amman, Jordan, for example; Alexandria, Egypt; and, 
Panama City, Panama. Mr. Siberell was raised in California--
where, what city were you?
    Mr. Siberell. In northern California, but my mother is from 
Los Angeles, Los Angeles native.
    Mr. Rohrabacher. All right. And attended the University of 
California at Berkeley, where he received a Bachelor of Arts 
and a degree in History.
    So with that said, gentlemen, we welcome your opening 
statements. We are going to be kind of trapped for time here. 
If you could keep it down about 5 minutes and then submit the 
rest of your remarks for the record that would be deeply 
appreciated.
    Ambassador Blake, you may proceed.

     STATEMENT OF THE HONORABLE ROBERT O. BLAKE, ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Blake. Well, thank you very much, Mr. Chairman, and 
Chairman Poe, and thanks to all the other members of the 
committee. I am delighted to be here today to testify and I 
look forward to working with all of you. As you said, Mr. 
Chairman, I have a longer statement that with your permission I 
will submit for the record.
    Chairman Rohrabacher, let me just start by thanking you and 
Chairman Poe for taking a codel to Uzbekistan. That visit was 
very well received and we really appreciate the time and 
trouble that you took to do that. I am pleased to testify today 
as we enter an especially critical and dynamic phase of our 
relations with Central Asia. Despite the real gains in 
stability in Afghanistan, our planned drawdown in Afghanistan 
and continued use of the Northern Distribution Network has 
raised anxiety levels among our Central Asian partners about 
the increased potential for instability and extremism, 
especially beyond 2014.
    I will let my colleague from the Bureau of Counterterrorism 
expand more on the specifics of the Islamic militant threat, 
but I will start by saying that we do not assess that there is 
an imminent Islamic threat to Central Asian states. 
Nonetheless, this is no time for complacency. Our foreign 
assistance programs seek to build the capacity of Central Asian 
countries to address transnational threats, such as those posed 
by Islamic militant groups that members of the committees 
discussed, while promoting regional economic integration and 
development.
    We also use our engagement as a mechanism to tackle issues 
related to human rights, rule of law and corruption, and 
promote economic growth, as failure to address these could 
contribute it to militancy. To achieve these objectives we are 
using a combination of diplomatic engagement and bilateral and 
multilateral assistance. On the diplomatic front, the United 
States holds annual bilateral consultations with each of the 
five Central Asian states. These consultations, which I chair 
with the Foreign Ministers or Deputy Foreign Ministers of each 
country, form the cornerstone of our bilateral relationships.
    Through these we convey a consistent message that 
democratic reform, respect for freedom of expression and 
religion, and an active civil society all contribute to 
stability, while cracking down on dissent and driving it 
underground may create more favorable conditions for 
radicalism. Our public diplomacy and assistance programs also 
reinforce our objective of strengthening respect for human 
rights and the rule of law.
    Mr. Chairman, our bilateral security assistance is helping 
build the Central Asian states' capacity to address and counter 
a broad range of threats including terrorism. In 2012, the 
United States provided approximately $215 million of security 
assistance across the range of Central Asian states. The bulk 
of this assistance focused on building capacity of law 
enforcement agencies to address transnational threats including 
terrorism and narcotics trafficking.
    We recognize that our interest in combating terrorism and 
other cross-border threats are shared by others, so we are 
engaging with others who are active in Central Asia in a 
cooperative approach to regional security and stability. I have 
made it a personal priority to expand significantly our 
consultations with Russia, China, the EU and others on Central 
Asia. And we have seen successful cooperation on a number of 
key initiatives that are outlined in my written testimony.
    Let me conclude by reiterating that we do not assess there 
is an imminent Islamist militant threat to Central Asian 
states. The limited threat currently posed by Islamist 
militants to Central Asia, however, is no room for complacency 
or retreat. The Central Asians face a broad range of challenges 
that, as in many other societies, could fuel radicalism in the 
long run and threaten the security interests of the United 
States and our allies. Addressing these challenges demands our 
continued vigilance and engagement in the region.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Blake follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              


   STATEMENT OF MR. JUSTIN SIBERELL, DEPUTY COORDINATOR FOR 
REGIONAL AFFAIRS AND PROGRAMS, BUREAU OF COUNTERTERRORISM, U.S. 
                      DEPARTMENT OF STATE

    Mr. Siberell. Chairman Rohrabacher and Poe, Ranking Members 
Keating and Sherman, distinguished members of the committee, 
thank you for the opportunity to appear before you today.
    As you have heard from Assistant Secretary Blake, we are in 
a critical and dynamic phase in our relations with Central 
Asia. Though the five Central Asian states have by and large 
been spared large-scale terrorist attacks in recent years, the 
governments in these states are concerned about how the 
region's security will fare after the drawdown of ISAF troops 
in 2014.
    The most capable terrorist groups with links to Central 
Asia, such as the Islamic Movement of Uzbekistan and the 
Islamic Jihad Union, remain focused on operations in western 
Pakistan and Afghanistan where they fight U.S., coalition, and 
local security forces in alliance with the Afghan Taliban, the 
Pakistani Taliban, and the Haqqani Network. Neither the IMU nor 
IJU are considered exceedingly powerful individually, and we 
assess they will likely remain focused on operations in the 
Afghan-Pakistan border region even after 2014. However, as 
Assistant Secretary Blake noted, while these groups do not pose 
an immediate threat to Central Asia, we are well aware of their 
ambition to destabilize their home countries.
    To address this threat, and as part of our broader 
relationship with Central Asia, the United States carries out a 
number of counterterrorism-focused capacity building programs 
that seek to develop law enforcement capabilities within a rule 
of law framework. Ultimately, counterterrorism and rule of law 
goals are closely aligned and mutually reinforcing. The better 
our partners become at using law enforcement tools to identify, 
disrupt, and then prosecute, adjudicate, and incarcerate 
suspected terrorists, the less they may feel, or claim, the 
need to resort to extra-legal methods to crack down on domestic 
threat.
    As an example, through the State Department's Central Asia 
Regional Strategic Initiative, we are enabling the FBI to 
provide its Automated Fingerprint Information System to the 
Government of Uzbekistan. This system will make it possible for 
authorities to more effectively identify fugitives and terror 
suspects, and complements ongoing FBI agreements with 
Tajikistan and the Kyrgyz Republic. RSI funding is also being 
applied to a community policing project in Tajikistan and the 
Kyrgyz Republic to encourage counterterrorism cooperation along 
the two countries' shared border. By building trust between law 
enforcement and key figures in local communities, this project 
aims to encourage law enforcement authorities to work more 
closely together.
    The State Department's Antiterrorism Assistance program is 
active in four of the five Central Asian countries, with an 
emphasis on border security and increasing counterterrorism 
investigation capabilities. ATA programming in the Kyrgyz 
Republic is aimed at assisting local authorities to detect and 
deter terrorist threats against the Transit Center at Manas 
International Airport and the Northern Distribution Network. In 
Tajikistan, ATA programs focus on strengthening border 
controls, particularly along the Afghan border. We are engaged 
in talks to resume ATA programming with Uzbekistan which was 
suspended in 2005 as a result of human rights concerns.
    State Department counterterrorism assistance also focuses 
on disrupting terrorist finance flows. Under this program we 
are providing cross-border financial investigation techniques 
training for Kazakhstani officials designed to improve their 
capability to detect, interdict, and seize illicit cross-border 
cash used to finance terrorism.
    Finally, and also as noted by Assistant Secretary Blake, 
the State Department works through multilateral bodies to 
advance counterterrorism objectives, including the OCSE and 
U.N.-specialized agencies. For example, U.S. funds are 
supporting implementation of the Global Shield program in 
Central Asia by UNODC, INTERPOL, and the World Customs 
Organization. Global Shield is a worldwide program that 
increases the capacity of law enforcement officials to detect 
and seize precursor materials in the manufacture of IEDs, and 
to improve the prosecution of IED-related interdiction cases. 
Our counterterrorism programs align with and complement 
assistance administered by partner U.S. Government agencies, 
such as USAID, the Departments of Defense and Energy, to 
address counternarcotics, counterproliferation and border 
security objectives.
    That includes my introductory remarks. Thank you again for 
the opportunity to discuss these issues with you.
    [The prepared statement of Mr. Siberell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Rohrabacher. Thank you very much, Mr. Siberell. And I 
will at this point recognize Judge Poe, the chairman of the 
Terrorism subcommittee, to have him have his opening line of 
questioning.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, gentlemen, for 
being here. The one thing of many that I learned in Uzbekistan, 
Mr. Ambassador, was that their forecast for the future is 
bleak. They think when we leave Afghanistan the Pakistanis will 
support the Taliban. That they will move into southern 
Afghanistan, that Iran will influence Iraq more and move in 
that region, and I am sure you have heard all of those things. 
They are very concerned about their country and terrorist 
networks moving into their country.
    I have a lot of questions. I will ask them and we will get 
to as many answers from both of you as we can. These groups 
that we have mentioned that are in the region, Central Asia 
specifically, where do they get their money? Where do they get 
their money?
    Somebody say something, the clock is running.
    Mr. Siberell. Well, when it comes to the IMU, as an 
example, it was mentioned this is a group that has its origins 
of course in Uzbekistan, has been adaptable over the years. 
Moved to Tajikistan at one period, was in Kabul as noted in the 
late 1990s, and where it began its affiliation with al-Qaeda. 
It works out of the Pakistani tribal areas in cooperation with 
the Pakistani Taliban with the Haqqani Network in some cases. 
These groups are therefore tied into the tribal networks that 
finance the broader terrorist work in the tribal regions of 
Pakistan, and then into western Afghanistan where they----
    Mr. Poe. But where do they get their money? Where does that 
money come from that ends up in Uzbekistan?
    Mr. Siberell. Yes, there are a variety of financing sources 
for the groups in Afghanistan. Some of it continues to come in 
from outside sources as it had traditionally with al-Qaeda 
into, the Haqqani Network, for instance, we know raises money, 
continues to raise money in the Persian Gulf states. They raise 
money through illicit activities through narcotics trafficking. 
They do it through criminal activity, through extortion. There 
are a variety of criminal and illicit activities that they 
undertake to raise money in that area.
    Mr. Poe. Has the FTO designation had an effect on IJU and 
IMU?
    Mr. Siberell. The FTO designations do give us the 
opportunity to work with partners around the world, including 
through multilateral organizations such as FATF and the U.N. 
bodies, to seize funds, to investigate financing flows. So the 
FTO designation is a highly useful tool by the State 
Department, by the FBI, by DOJ, and other law enforcement 
agencies.
    Mr. Poe. When the United States leaves Afghanistan, the 
Department of Defense has made a determination that it is 
cheaper to leave that equipment, some of the equipment there, 
not bring it home. That is a Department of Defense decision. 
Two questions about that. How do we know some of that is not 
going to end up in the hands of the bad guys? And second, is 
any of that going to be available for our partners in the 
region like the Uzbekistan Government?
    Mr. Ambassador?
    Mr. Blake. Sir, they are still reviewing exactly what 
equipment is going to be left in Afghanistan, and then what 
equipment might be available to our friends in Central Asia. My 
supposition is that the equipment that might be made available 
would be nonlethal assistance, and we have already had some 
discussions with the Central Asian states about what they might 
be interested in. But again, this is still in a very 
preliminary stage.
    Mr. Poe. And how do we make sure that any equipment, 
especially the lethal equipment, ends up in the hands of the 
bad guys?
    Mr. Blake. Well, again, I think most of the lethal 
equipment is probably going to be taken out of Afghanistan, and 
that points to some of the points that were made earlier about 
the importance of these retrograde operations. Many of the 
Central Asian states do not want to see lethal equipment 
transiting through their territory, so a lot of that will have 
to be probably flown out or perhaps transited out through 
Pakistan.
    Mr. Poe. And there are other players in the region. There 
are the Chinese, there are the Iranians, and there are the 
Russians, all just looking to move in, in my opinion. What do 
you see as their role in Central Asia as the United States 
leaves Afghanistan?
    Mr. Blake. I think I perhaps differ slightly with your 
characterization. I think both the Chinese and the Russians 
share our objectives of seeing a peaceful transition. The 
Chinese have been putting a lot of money into Central Asia into 
the infrastructure networks, and I think, overall, support this 
idea of regional integration as do the Russians. But we still 
need to work with them a little bit on getting them to do more 
in Afghanistan itself. The Chinese have invested in the Aynak 
copper mine, for example, but they have not invested to the 
extent that say the Indians have.
    Likewise, we have tried very hard to work cooperatively 
with the Russians on Central Asia and to be very transparent 
with them and figure out ways that we can work together. I 
think we have shared objectives in Central Asia and in 
Afghanistan, so we will continue to pursue those common 
objectives.
    The Iranians have not, interestingly, played that large a 
role in the region. Most of the countries of Central Asia have 
stiff-armed them and kept them away, fully aware of our 
concerns and others' concerns about their support for their 
efforts to acquire nuclear weapons. They all share our 
misgivings and our opposition to Iran acquiring a nuclear 
weapon. So again, to the extent that they have relations, they 
have them to allow transit through Iranian territory so that 
they can get their goods to a port in the Indian Ocean. And 
again, I think all of them have been supportive of 
international sanctions efforts.
    Mr. Poe. Thank you. I yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor, and next 
we have Congressman Keating.
    Mr. Keating. Thank you, Mr. Chairman. I am intrigued by the 
idea of a New Silk Road in Central Asia, Mr. Blake, and it is 
an initiative that can serve to further democracy, as I 
mentioned, economic development, communication throughout the 
region, and I know what a difficult task this is. First of all, 
how do you plan to overcome issues like corruption and some of 
the basic issues that you have to do to have this be 
successful? Secondly, do you envision participation from people 
from the outside, outside donor nations or international 
organizations like the Asian Development Bank or World Bank? 
What is your view of this?
    Mr. Blake. Thanks for that very important question, 
Congressman. The New Silk Road idea was conceived by Secretary 
Clinton. And it was a response to the fact that as our military 
pulls out, a great deal of spending is also going to go with it 
and therefore have some impact on the Afghan economy. So we 
need to turn the Afghan economy from a aid-based economy to a 
trade-based economy. And to do that we need to build up the 
regional infrastructure to enable that to happen.
    So we have been very supportive of regional efforts to 
develop the roads, the rails, the energy pipelines, and the 
electricity distribution network to integrate this region more 
fully. Both Central Asia and South Asia remain among the least 
regionally integrated regions of the world, so this is a very 
large task that we are undertaking. But I think that we used 
last year productively to help gain a regional consensus in 
favor of this idea, so really everybody now agrees to that.
    And the challenge now is really to put this into motion and 
to get some of these projects off the ground. So for example, 
we are working extremely hard to encourage the Turkmenistan, 
Afghanistan, Pakistan, India pipeline, which would be an 
enormous step forward, to link the huge gas reserves of 
Turkmenistan with the energy-hungry economy of India, and also 
provide hundreds of millions of dollars in transit revenues for 
Afghanistan and Pakistan. So all four countries very much 
support this and I think the program is making good progress. 
We are strongly supporting efforts by these countries to accede 
to the World Trade Organization precisely to open up their 
economies and reduce corruption. And we are very much working 
with the Asian Development Bank, the Islamic Development Bank, 
the World Bank, and many others to gain their support for all 
of these efforts, because they are really going to take the 
lead on most of the mobilizing and the financing for this.
    Mr. Keating. And I think that both of you might have 
mentioned one, specifically, about the need in a democracy to 
have freedom of expression. And I am concerned about what I 
mentioned in my opening remarks about the inability to have 
that kind of communication available to people, particularly 
when we have looked at what happened with the Arab Spring, with 
the social communication and other means. I am concerned about 
that being suppressed, and I want your observations, if you 
could share them, in terms of where that stands now in that 
region and what potential that might have for the kind of 
freedom of expression that a democracy requires.
    Mr. Blake. Again, a very, very important question. We have 
consistently stressed to our friends in Central Asia that 
counterterrorism requires a multi-faceted approach. Certainly 
there has to be a counterterrorism and a security element. 
There needs to also be strong economies to provide jobs, 
particularly for young people. But also there needs to be good 
governance, and we often talk about the experience of the Arab 
Spring.
    And two of the very important lessons for the countries of 
Central Asia is, number one, that they need to address 
corruption, and number two, they need to provide more space for 
civil society. And that means journalists, freedom of 
expression, civil societies that hold NGOs, and unfortunately 
the trends are moving in the wrong direction in Central Asia 
for the most part. Most of the countries looking ahead to the 
transition in Afghanistan are whittling away at the space for 
civil societies.
    I have just returned from Tajikistan, and I made public 
remarks about our concern for that and I spoke to the President 
about that, because in the long run this is very risky policy 
for them to take because they are going to drive moderate 
people underground if they don't have access to an ability to 
express themselves.
    Mr. Keating. Well, quickly, if I could interrupt. Mr. 
Siberell, you mentioned about the need, and you just mentioned, 
Ambassador, about corruption, about the need for rule of law. I 
am concerned, quickly, if you can look at the overall region 
there and see where the state of the rule of law is. A lot of 
the justice is administrative rather than what we are familiar 
with, I believe, at least from my own meetings with people, but 
where does that stand in terms of police and the justice system 
to really keep a rule of law so we can deal with corruption?
    Mr. Siberell. Thank you, Congressman. As articulated in the 
National Strategy for Counterterrorism, we will pursue our 
counterterrorism policies within a strong rule of law framework 
and consistent with American values, in particular, human 
rights safeguards. And all of our counterterrorism assistance 
has built into it an observation and a respect for a need to 
protect human rights safeguards by governments who receive our 
assistance. As an example, our ATA program, one of our 
principal counterterrorism programs, has as one of its three 
congressionally mandated requirements, the protection of human 
rights safeguards, in addition to building capacity to fight 
terrorism and to building a strong bilateral relationships in 
the area of counterterrorism. So rule of law framework is not 
inconsistent with effective counterterrorism. In fact, they are 
mutually beneficial and required to be sustainable over the 
longer term.
    Mr. Keating. Thank you. I am a little over my time. I yield 
back.
    Mr. Rohrabacher. Thank you very much. The chair will now 
proceed with his 5 minutes. With Uzbekistan, I have been 
working with Uzbekistan for about 25 years now, maybe actually 
more than that, and they were instrumental in helping us defeat 
the Taliban after 9/11. Just to note, our own Government, along 
with Pakistan and Saudi Arabia, bear a huge responsibility for 
the fact that the Taliban existed in the first place, and some 
of us were opposed to that and fought against that, but it did 
come back and bite us on 9/11. But without the Uzbeks' support 
and full, just total cooperation utilizing their territory in 
Termez and other places along that southern border, their 
southern border, the northern border in Afghanistan, we could 
never have defeated the Taliban as we did. Yet, we all know 
that Uzbekistan has never been, at least in my lifetime, a 
country that could have been on the acceptable list of human 
rights, levels of protection of human rights.
    Where do we draw the line here? I mean we know, for 
example, one of the things that the Uzbeks are declared 
against--so they help us defeat the Taliban and al-Qaeda, 
people who had massacred 3,000 of our own people, radical 
Muslims, and in fact, some of the things they are criticized 
for in Uzbekistan for denying religious rights and freedom of 
speech are basically trying to prevent radical sects of Islam 
from taking hold. They are not permitting the Wahhabis to come 
in, and with hate-filled agendas establish little working 
groups there in their various communities. How do we draw the 
line there about what is in the long run interest of a free 
society and a stay of stability in that region and protection 
of our own rights, our own say national interests?
    Mr. Blake. That is a very important question, Mr. Chairman. 
Let me answer that by saying first that when we started out 4 
years ago we decided we wanted to use these annual 
consultations to really establish a greater level of engagement 
and thereby establish greater trust between the United States 
and Uzbekistan, and kind of build up from the ruins of what 
happened in Andijon where essentially we rapidly cut back on 
virtually all of our programs in Uzbekistan.
    Mr. Rohrabacher. Right.
    Mr. Blake And looking forward now, we need Uzbekistan to 
have good relations with Afghanistan. We need Uzbekistan to be 
supporting this regional integration vision that I outlined 
earlier. They have the largest population in the region. They 
are centrally located. They have played an enormously important 
role in building the main rail line to Mazar-i-Sharif. Uzbek 
electricity lights Kabul these days.
    So there is a lot of important work that is already going 
on. They have, as you said, quite a lot of anxiety and 
suspicion about the future. We have sought to reassure them 
about our enduring commitment to Afghanistan and to the region. 
And again, I think looking forward it is very much in our 
interests to continue to work very closely with the Uzbeks.
    Mr. Rohrabacher. Do we sell weapons to Saudi Arabia?
    Mr. Blake. I can't really tell you, sir. It is not my area 
of--yes, we do, of course.
    Mr. Rohrabacher. Okay, so we sell weapons to Saudi Arabia. 
Are the Saudis more protective of human rights than the Uzbeks?
    Mr. Blake. I don't want to try to get into comparisons, Mr. 
Chairman. But let me just say with respect to Uzbekistan and 
weapons, as you know we have begun a very careful and 
calibrated approach to supporting now their defensive needs 
because they have real threats that they face, not just because 
of their support for the Northern Distribution Network, but 
because groups like the IMU and the IJU are actively targeting 
them. So it is in our interest to help defend themselves 
against those threats.
    Mr. Rohrabacher. Well, it also is they see part of that 
effort as preventing radical Islamic groups, who hate us as 
well, I might add, who would turn their country into a radical 
Islamic Caliphate, or whatever they want to call it. They see 
that stopping that from happening is important to their 
interests, but also it is important to our interests. And 
ironically we are selling weapons to the Saudis and, quite 
frankly, I think there are elements within Saudi Arabia that 
are financing the very groups that are going in trying to make 
them radical Islamic, anti-Western, an anti-Western country.
    So it is a rather confusing situation if you do as I do, 
and I believe in human rights and should be part of our agenda, 
but at the same time we don't want radical Islam to be taking 
over countries, because they don't believe in any human rights.
    Mr. Blake. Yes, but again, Mr. Chairman, as you I am sure 
found out during your visit to Uzbekistan, they are not asking 
for major weapons systems, at least offensive weapons systems. 
Their major ask of us these days is to actually help them 
defend themselves, and then also to have more business. They 
want to get more jobs for their people.
    Mr. Rohrabacher. Mr. Ambassador, they made it clear to us 
that they would prefer replacing all of their former Soviet and 
Russian military equipment, much of it left over from the Cold 
War, they would like to replace it with American equipment. And 
it is going to be very interesting. We find is that in our 
interest? How do we make that determination, if their human 
rights are not at an acceptable level, but they are not at an 
acceptable level because they are repressing radical Islamic 
forces that would make their country even worse? This is a 
jigsaw puzzle and I hope we will be working on it together.
    Mr. Blake. Let me just add 30 seconds of commentary on 
that----
    Mr. Rohrabacher. Go right ahead.
    Mr. Blake [continuing]. Which is to say that as you know we 
sought and received an exception from Congress to the ban that 
previously existed on providing any kind of military assistance 
to Uzbekistan. So we have used that to provide defensive 
equipment, as you are well aware, but we have also made clear 
to the Uzbeks that it is important for them to make progress on 
human rights, and as they make that progrss that will enable us 
to do more on the weapons side.
    Mr. Rohrabacher. Well, I am hoping that the progress that 
we are talking about in human rights isn't, well, we are going 
to convince them now to permit some radical Islamic sect from 
setting up a well-financed by the Saudis, setting up operations 
all over their country, which will eventually turn it into a 
country that hates us and doesn't want to cooperate with us. So 
these are----
    Mr. Blake. It is the kind of human rights that Mr. Keating 
was talking about. It is the kind of thing that they need to do 
because it is in their own interest to do.
    Mr. Rohrabacher. Yes.
    Mr. Blake. When an American businessman comes to Uzbekistan 
and cannot turn on the internet and check how his stock is 
doing, that is not going to help them very much. So these are 
things that are going to be good for them to do. It is not just 
something that is good for----
    Mr. Rohrabacher. Well, we certainly agree on that, and we 
will sort of work on trying to find out where the rational 
place to put the line is on these decisions. I will now turn to 
Mr. Sherman who has been involved in these issues for a long 
time.
    Mr. Sherman. A long time. As I understand our official 
human rights formula, it is the number of human rights 
violations divided by the number of million barrels of oil 
exported by the relevant country. And I think if you used that 
formula you would have better things to say about Saudi 
Arabia's human rights policies.
    Focusing on Saudi and the Gulf states, maybe 10, 12 years 
ago, Saudi Arabia's policy on Islamic extremism was if you 
don't do it here you can finance it there. Now that deal was 
kind of ripped aside by Khobar Towers, but seems to be back to 
some degree. Is there a lot of private Saudi money going to 
these organizations that we list as foreign terrorist 
organizations, and if so, is this in violation of Saudi law or 
consistent with Saudi law? And I realize while this affects the 
areas that you are responsible for, Ambassador Blake, you are 
not charged with being the expert on Saudi Arabia.
    Mr. Blake. Well, I will just say that the former Special 
Representative for Afghanistan and Pakistan, Ambassador 
Holbrooke, and then his successor, Ambassador Grossman, have 
spent a great deal of time in the Gulf talking to our friends 
in the Gulf about cracking down on a lot of these sources of 
funding that occur. This is not official funding. This is from 
private sources. But nonetheless, we need their help to get at 
that and to stop that from recurring, because obviously it is 
quite an important thing. Many of these groups are attacking 
our troops in the region so we have a very substantial and 
direct interest in this.
    Mr. Sherman. Then of course the Saudis or private Saudi 
forces, I think actually governmental Saudi money, is going to 
the worst elements of the Syrian opposition. Whether the worst 
elements of the Syrian opposition are worse than the worst 
elements of the Assad regime I leave to another hearing.
    I want to focus a little bit on public diplomacy and 
reaching out to people. In which languages and with what 
capacity does the Voice of America reach Central Asia, and what 
can we do to reach out to more people with a message that is 
believable?
    Ambassador?
    Mr. Blake. I don't know all the different languages. I know 
they broadcast in several languages and certainly in Russian, 
and that is important but that is not sufficient. And so we 
have very active programs, for example, exchange programs, but 
a huge range of public diplomacy programs through things like 
our American Corners that you will find all over Central Asia 
that are immensely popular.
    Mr. Sherman. I do want to focus on Voice of America and 
other broadcastings. So if you could provide for the record, 
where are we able to erect radio towers? Are we restricted just 
to short wave, or are we reaching people on the radio 
frequencies that are going to be in the car? Which languages? 
How many hours a day? All the things that your fine staff will 
put together and I look forward to reading.
    Next, what is Russia's attitude toward our involvement in 
this, what they call the near abroad? Sometimes they seem to 
want us to go, sometimes they seem to want us to stay. Do they 
perceive themselves to have the capacity to assume in Central 
Asia the role that we have played over the last decade?
    Ambassador?
    Mr. Blake. As I said, Mr. Sherman, we have worked quite a 
lot, I personally have worked quite a lot with the Russians 
over the last 4 years on Central Asia. They have a shared 
interest in seeing a successful transition in Afghanistan. 
Thirty percent of the drugs that come out of Afghanistan go 
through Tajikistan and Kyrgyzstan and most of it ends up in 
Russia. Likewise, they don't want to see extremist groups being 
able to organize in Afghanistan or Pakistan that could pose a 
threat either to Russia or radicalize groups that are in 
Russia. So again, I think we have a shared interest and for the 
most part we have been able to work very cooperatively with the 
Russians on things like counternarcotics, on health issues. 
There is no denying that there are elements sometimes within 
the Russian Government who sometimes oppose what we do, but 
overall I would assess that we have had a reasonably 
cooperative relationship.
    And again, we have worked very hard with the Russians to 
also encourage them to support this regional integration 
effort. Many of the Central Asians are concerned by Russian 
alleged plans to start a Eurasian economic union that they 
worry might try to close off some of these trade patterns that 
are now emerging. So that is why, again, making sure that all 
these countries accede to the World Trade Organization is so 
important, because World Trade Organization obligations would 
trump any Customs union or other obligations.
    Mr. Sherman. I yield back.
    Mr. Rohrabacher. We have Mr. Marino.
    Mr. Marino. Thank you, Chairman. Well, gentlemen, 
Ambassador, I would like to direct this to you, and if you then 
want to follow-up, please do it. I want to expand a little bit 
on the Saudi Arabia, the money that we are spending there, the 
oil that we are buying there, the terrorist organizations that 
are being funded. I didn't quite hear what State is doing about 
it, or is it just that we have a situation where, what a 
tangled web we weave and we have to turn a blind eye because of 
the oil situation?
    And I agree with Congressman Sherman. I am sure there is 
some, if we dig deep enough there is some crazy mathematical 
scheme or formula that somebody at State has sat down and drawn 
up and made the determination on which way we go. But seriously 
now, specifically what are we doing and what else can we do to 
get the point across to the Saudis?
    Mr. Blake. Well, I don't really have much more to say 
beyond what I have already said, but let me ask Mr. Siberell 
who can tackle the counterterrorism side of it.
    Mr. Marino. Okay.
    Mr. Siberell Thank you, Congressman. I think the first 
thing that is worth noting is that Saudi Arabia itself has been 
a victim of al-Qaeda terrorism. It has fought its own war with 
al-Qaeda, quite a vicious war which includes assassinations and 
attempted assassinations of senior leadership. So they are 
working, they share our objectives in fighting al-Qaeda in the 
Arabian Peninsula and in Afghanistan, and we have worked 
cooperatively in that as do most of the other Gulf states.
    What they have done is try to work against funding. They 
have cracked down quite effectively on official funding, as it 
were, from official government agencies. What we have now is a 
problem of private donations to extremist groups. Some of those 
are legacy relationships that of course go back to the 1980s 
when these groups were raising money out of Afghanistan and the 
Gulf states quite openly. So we have worked with those 
governments, and as Ambassador Blake noted, our Special 
Representative for Afghanistan and Pakistan has spent quite a 
lot of time in the Gulf states to try to dry up and work 
against that funding that continues to flow in some cases, 
privately, for instance, through the Haqqani Network, which is 
one example of Saudi funding that continues.
    Mr. Marino. How about the state of Qatar? Do you see any 
funds from there going to the terrorists as well?
    Mr. Siberell. Well, I would say broadly that there is 
evidence of private donations that emanate from a number of the 
Gulf states. We do work closely with each of the individual 
governments through diplomatic, through intelligence channels 
to try to identify and then work against those funding streams.
    Mr. Marino. Let us switch countries for a moment. I am 
quite a bit concerned about China. I recently got back from a 
trip to China and they were very polite and very kind to us, 
but they say one thing and do something else. From my studies, 
I have been researching that there is a tremendous investment 
in Afghanistan by China, and it zeroes in primarily on minerals 
and precious ores. What influence is China going to have on 
Afghanistan, the rule of law, the government? And I think 
Afghanistan is looking at China as simply a cash cow. Can you 
elaborate on that, please?
    Mr. Blake. Well, as you say, sir, the Chinese have 
undertaken some investment. I wouldn't want to exaggerate it. I 
mean they have not undertaken as much as the Indians have, for 
example, and in fact we would like to see them do more in terms 
of investing certainly in a lot of the regional infrastructure 
that will be needed, because that would certainly be very 
welcome and they have done a lot of that in Central Asia. But 
as you point out very correctly, they do not take a position on 
things like rule of law and things like that. That is not part 
of their foreign policy.
    Mr. Marino. Hasn't China also given, donated money to 
Afghanistan for so-called humanitarian purposes? So that is 
going to have a definite, I would think positive influence on 
the Afghanis.
    Mr. Blake. They have an assistance program, but again it is 
relatively modest compared to say the Indians. I would say it 
is about one-tenth of what the Indians provide. So again, a lot 
of humanitarian assistance and infrastructure assistance like 
that would be very welcome from the Chinese, and we would like 
to see them do more.
    Mr. Marino. Okay, you have 29 seconds, and either can 
answer this. What is the motive between India and Afghanistan 
and China and Afghanistan?
    Mr. Siberell. Well, I think they take a very different 
position. India has taken a very, kind of wholistic view of 
what needs to be done there. And they have a $2 billion 
assistance program, they have invested heavily, they have 
hosted an investment conference. They have been a champion of 
this regional integration vision. And I think China has taken a 
far less wholistic view and a much more self-serving view, 
frankly.
    Mr. Marino. Thank you. I yield back.
    Mr. Rohrabacher. I would now like to welcome a new member 
to Congress, and from our area there in southern California. 
Congressman Lowenthal has a distinguished record in the 
California legislature, and we now welcome him to the foreign 
policy arena.
    Mr. Lowenthal. Thank you, Congressman Rohrabacher. I look 
forward to working with you, and I appreciate those kind words.
    My question, Ambassador, I would like to kind of dig down a 
little bit more and understand, it is almost to follow-up. 
These are, I think, the complexity that I think that 
Congressman Rohrabacher has said, and also I want to follow-up 
on the question or the issues that were raised by Congressman 
Sherman about the role, our relationship with Russia in this. 
You have indicated that we and the Russians really share common 
goals for independence and stability of Central Asian nations. 
And yet in the report that we have back, and I am not saying 
that these are in opposition, but I would like to understand 
more. The chair indicated in the report that we may be 
providing, and you pointed out it is nonlethal, military 
assistance to Uzbekistan at the same time that the Russians may 
be providing up to $1 billion in arms to Kyrgyzstan, and that 
that country may not extend our lease for the military base 
after 2014.
    So I am wondering, while we may have common goals, are 
there some competing roles between Russia and the United 
States, and have we entered into any kinds of discussions with 
the Russians about who we are supporting and who is not, and is 
there any competition going on?
    Mr. Blake. As I said, Mr. Lowenthal, welcome to the 
committee.
    Mr. Lowenthal. Thank you.
    Mr. Blake. We have, and I personally have very, very 
detailed conversations with the Russians several times a year 
where I go at least a day, or if not more, to talk to them 
about all these issues. Again, our interests are not always 
completely synchronized. I will give you one example on human 
rights. I have just come back from Tajikistan and we talked 
about there with the civil society about how there is kind of 
shrinking space for them. And they said that one of the 
influences is that because the Russians have cracked down on 
Civil Society that has given the rulers in many Central Asians, 
kind of emboldened them to do more to crack down in Central 
Asia. So that is an example where Russia has not played a very 
salutary role.
    But again, I think on a lot of the very important issues we 
have been able to cooperate with them, certainly on the NDN, 
the Northern Distribution Network and things like that. That 
said, Russia has an overwhelming influence in Central Asia and 
many of the Central Asian states chafe at that influence. They 
do not want to be as reliant as they are on the Russians. And 
that is just a normal human reaction. A country like Tajikistan 
has 1 million Tajiks working overseas in Russia. They derive 40 
percent of their GDP from the Russians, from those remittances. 
They import 90 percent of their fuel from Russia. So the 
Russians have enormous leverage over them, and of course no 
country likes to be subject to that kind of leverage.
    So for that reason, all of these countries have welcomed 
greater engagement by the United States. They have welcomed our 
efforts to promote American trade and investment. They have 
welcomed our increased assistance programs, and we have 
welcomed the opportunity to do that.
    Mr. Lowenthal. Maybe the follow-up is, do the Russians 
welcome it?
    Mr. Blake. Well, again, I don't see the Russians working to 
try to counter that. I mean I think that we try to characterize 
this as a great gain rather than a great game. That is, that we 
can all benefit from an expanding pie, and that the overall 
objective is to stabilize this region and to provide more open 
markets that everyone is going to benefit from and to provide 
more responsive governments, that again is going to benefit 
everyone because there will be a greater stability.
    Mr. Lowenthal. Thank you, and I yield my time.
    Mr. Rohrabacher. Thank you very much. We now have with us 
another man with a distinguished career in the state 
legislature, and as well as a distinguished career in the 
United States Marine Corps prior to that, who accompanied us on 
our codel to Central Asia.
    Colonel Cook?
    Mr. Cook. Thank you very much, Mr. Chair. I guess the title 
of today's briefing is ``Who's On First?'' And thank you for 
your information. We have been getting a lot of briefings on 
the military situation in Afghanistan, and yet I just wanted to 
go over a little bit of the diplomacy that relates to the 
military. And we talked about what happens when we downsize in 
Afghanistan and all this gear, all this military gear which 
probably runs into the billions, whether it is going to go to 
Uzbekistan or whether it is going to come back to this country. 
And yet it is very, very dicey whether we are going to be able 
to move that through Pakistan. Certainly tanks and things like 
that are the heaviest parts of the equipment and very, very 
expensive to fly in and out of Theater. You can only get so 
much on a plane. Very, very small.
    So my question basically is from a diplomacy standpoint, if 
things continue to deteriorate with Pakistan and they decide to 
shut down not only the ground corridors but the air corridors, 
what kind of impact would that have? Then suddenly Uzbekistan, 
who else have we got left? We can't go over Iran, and it is a 
landlocked country there. If you could answer that, and I yield 
back.
    Mr. Blake. Well, thank you very much, Mr. Cook.
    I have worked for 27 years for the United States military 
and I have tremendous respect with their capabilities. And one 
of the great things that our military does is plan, and they 
have plans for everything. And they also believe a great deal 
in redundancy. So they can put in front of you, a map of all 
kinds of different ways to get things in and out of 
Afghanistan. My piece of it has been the Central Asian piece of 
it, and it has been quite an important one, as you say, when 
the ground lines of communication with Pakistan were closed. I 
am happy to say that those are reopening now and that seems to 
be going in a better direction. So that is certainly welcome 
news.
    But we will always have options. We will always be able to 
fly things through Central Asia. We will be able to fly things 
out through the Gulf. We will be able to fly to Russia. We have 
multimodal transport options there, and of course through 
Europe. So there are still many different options available to 
our military, but of course the more the better, and the 
Pakistan one remains the one of choice because it is the 
cheapest and shortest to the sea where we can get things out 
via ship at the lowest cost to the U.S. taxpayer.
    Mr. Cook. Yield back.
    Mr. Rohrabacher. Thank you very much. Colonel, we will just 
send a company of Marines down that road and they will just 
clear away all those problems there.
    Mr. Cook. I am brand new. I don't want to get into any more 
trouble right away.
    Mr. Rohrabacher. And Congressman Duncan, go right ahead.
    Mr. Duncan. Thank you, Mr. Chairman. I was reading an 
article in the Washington Post, February 26, by Joby Warrick, 
about the elaborate surveillance operations of Hezbollah. And 
it raised a question, because in that article they are talking 
about a gentleman that was captured, and I will probably 
pronounce this wrong being from South Carolina, but Hossam 
Yaacoub was a Lebanese Swiss that was caught in Cyprus 
surveilling Israeli tourists coming over to Cyprus, and sort of 
a part of a larger surveillance operation and terrorist 
operation by Hezbollah as, I think, about 11 days later, 
Bulgaria, a group of Israelis, Jewish tourists were bombed 
there.
    So in thinking about this hearing, I guess the question I 
have to ask is what is Iran's role in the region? Have you seen 
any evidence of the Revolutionary Guard, the Quds Force or 
Hezbollah activity?
    Ambassador?
    Mr. Blake. Congressman, as I said earlier, the countries of 
the region take a fairly clear-eyed view of some of the risks 
posed by Iran. They are collectively very concerned about the 
risk of a further destabilization to the region were Iran to 
acquire a nuclear weapon. Likewise, they are very attuned to 
the risks posed by the IRGC and other groups. So they mostly 
maintain relations so that they can get access out through Iran 
to the Persian Gulf for their goods, because all these 
countries are landlocked countries and they need access to be 
able to export. But beyond that, again I think they have been 
very careful about their relations with Iran and they have all 
respected the sanctions regime against Iran.
    Mr. Duncan. Are you aware of any sanction violations in the 
region that this committee might need to be aware of?
    Mr. Blake. No, sir. On occasion there are private 
individuals that run afoul of our sanctions. We always bring 
those immediately to the attention of those governments, and 
those have always been addressed immediately.
    Mr. Duncan. Okay. Just shifting gears in the remaining 
time, going back to, I think, a question from earlier, what is 
Russia's role in the region? I know there is a lot of rivalries 
in the region, and how do you perceive Moscow playing one 
country against another in deference to our interests there?
    Mr. Blake. Well, again, I think the Russians seek to have 
good relations with all these countries. Of course they have 
longstanding historical ties that date back to the Soviet 
Union. So they are trying to do what they can to expand their 
trade ties, to expand organizations like the CSTO that will 
kind of bring these countries more into their orbit as much as 
possible. But at the same time as I said earlier, all of these 
countries do not want to be overreliant on Russia, and so they 
very much welcome a greater role by the United States and a 
greater role by China. So again, I think they are all pursuing 
a multi-vectored foreign policy and see that they can benefit 
from that.
    Mr. Duncan. Mr. Chairman, I don't have anything further and 
so I yield back.
    Mr. Rohrabacher. Thank you very much. And as before, as we 
move onto the next panel, just a couple notes from the 
chairman, taking the chairman's prerogative. I am much more 
concerned than you are, Mr. Ambassador, about Chinese motives. 
I would never suggest they are in favor of a peaceful 
transition. They are basically in a relationship with Pakistan, 
which I think is highly provocative. I understand that they 
have just been given control over a major seaport in the area 
there down in Balochistan, and that is a, if there was ever a 
reason for the emergency flags or the danger flags to go up it 
would be that particular transaction between the Chinese and 
the Pakistanis, not to mention the cornering of wealth that the 
Chinese seem to be capable of, seeing that they can bribe 
anybody and don't hesitate to do so.
    And one last note as well, I think that we need to 
recognize real cooperation when we see it, and the Northern 
Distribution Network, which is basically being done with the 
full cooperation of Russia, should be recognized as an outreach 
on the part of the Russians to the United States as a means to 
try to foster cooperation. They have us right now at a great 
disadvantage. If they had animosity toward us and wanted to 
recognize it they could, pardon the expression, the Russians 
could screw us over anytime they wanted now, but instead they 
have decided to cooperate with us and to facilitate the supply 
of our troops in that region. I see that as an act of good 
faith on the part of the Russians that we should be 
recognizing.
    And with that said, I want to thank both witnesses. And 
does my ranking member have last--no, okay. Thank you very 
much, and we appreciate you coming with us today.
    Mr. Blake Thank you. We look forward to working with the 
committee. Thank you very much.
    Mr. Rohrabacher. Our second panel can now be--and as you 
are being seated let me remind those in attendance and the 
press as well that today I am dropping a House Resolution 
calling for the immediate release of Dr. Afridi from a 
Pakistani prison in which he is in right now, and also 
recognizing Dr. Afridi's courageous help in helping us bring to 
justice Osama bin Laden, and anointing him hopefully with a 
congressional resolution recognizing him as a hero to the 
people of the United States of America.
    And this man, if we expect to have people in Central Asia 
or anywhere else to step up when it counts, we better not 
betray those people who are our friends as we have betrayed Dr. 
Afridi. He is very symbolic. And if we have an American hero 
like that languishing away in prison because he has helped us, 
who else is ever going to help us? Who will help us if we 
abandon those who risk their lives for us? We need to free Dr. 
Afridi. And there will be a bill on the floor actually being 
introduced today to that end. Thank you very much.
    And we have the rest of our panel and--all right. We have 
for our second panel, Dr. Ariel Cohen who is a senior research 
fellow for Russian and Eurasian Studies, and International 
Energy Policy for the Heritage Foundation. And he earned his 
doctorate at Fletcher School of Law and Diplomacy in 
Massachusetts, and he has served as a consultant to both the 
executive branch and private sector on policy toward Russia, 
and I am sure he will have a comment on my last comment, which 
is fine.
    And he is also, of course, a specialist in Eastern Europe 
and Central European affairs as well as the Caucasus and 
Central Asia. He has participated in a long-term study known as 
``Russia 2025'' conducted by the World Economic Forum. He is a 
former member of the board of directors of the California 
Russian Trade Association, and has published widely on the 
threat of Islamic terrorism and insurgency in Central Asia.
    We also have with us Jacob Zenn who is a research analyst 
for Eurasian and African Affairs for the Jamestown Foundation. 
A charter member of the National Language Service Corps for his 
fluency in Chinese, Arabic and Indonesian--I take it you speak 
English as well, so that is--whoa. He has worked and carried 
out field research throughout the region, and Mr. Zenn has 
received a J.D. from Georgetown Law in 2011 where he was a 
Global Law Scholar, and a graduate degree in International 
Affairs from Johns Hopkins School of Advanced International 
Studies. And then he has a B.A. from the International Affairs 
at Emory University which he received in 2005.
    Then we have Nathan Barrick, a former Army infantry officer 
who now works as a national security and international affairs 
strategic consultant. He has served as a Central Asian plans 
and policy officer, a strategic consultant for the U.S. Central 
Command, a commander on Central Asia and South Asia, and as a 
branch chief and senior analyst for Central Asia in the Joint 
Intelligence Center at U.S. Central Command. He is a graduate 
of the United States Military Academy at West Point, with a 
degree in military history. He received a Masters Degree from 
Stanford University in Russian, East European, and Euroasian 
Studies.
    And finally we have Dr. Stephen Blank, a research professor 
of the National Security Affairs of the U.S. Army War College 
where he also works with the Strategic Studies Institute. His 
more recent monograph for the SSI is, Russia's Homegrown 
Insurgency: Jihad in the North Caucasus. Mr. Blank holds a B.A. 
in History from the University of Pennsylvania, and a Masters 
Degree and Ph.D. in History from the University of Chicago.
    Gentlemen, you may proceed, and hopefully you can keep it 
to your 5 minutes, and then we will put everything else in the 
record and that way we will have some time for questions.
    Dr. Cohen, you may proceed.

  STATEMENT OF ARIEL COHEN, PH.D., SENIOR RESEARCH FELLOW FOR 
     RUSSIAN AND EURASIAN STUDIES, THE HERITAGE FOUNDATION

    Mr. Cohen. Thank you, Chairman Rohrabacher, esteemed 
chairmen, ranking members, and members of the committee. My 
name is Ariel Cohen. I am a senior research fellow at the 
Heritage Foundation, and I testify in my private capacity.
    In the global struggle against violent Islamism, Russia and 
Eurasia represent an important front. No less a figure than 
Ayman al-Zawahiri, Osma bin Laden's successor, proclaimed this, 
and he actually visited the Caucasus back in the '90s and spent 
some time in a Russian jail, according to publications.
    The jihadis see a strategic opportunity to reach out and 
radicalize Muslims, who in many cases have no access to a 
moderate and credible version of Islam. They view the area from 
the Black Sea to Fergana Valley and the Pamir Mountains as an 
area that is potentially ungovernable, where they can train and 
use as the base of operations, and they also target the 
governments and regimes within Russia itself, like North 
Caucasus. And now it is spreading out of North Caucasus' 
traditional insurgency area to the heart of Russia, like Kazan 
in Tartarstan, the capital of Tartarstan, where the Mufti and 
the deputy Mufti were murdered by terrorists just last year. 
They have been attacking governments in Central Asia, 
especially that of Uzbekistan, Kyrgyzstan and Tajikistan, for 
the last two decades. And in my personal experience, when the 
governments reached out to our Government before 9/11, they 
told me they were not listened to and not cooperated with and 
not helped. This should not happen again as we are withdrawing 
from Afghanistan.
    Briefly on Russia, the insurgency in North Caucasus is 
going on for over 200 years. It has, on and off, strong 
religious overtones, and in the last 20 years the Russian 
Government spent a lot in treasure and blood to defeat that 
insurgency, whereas they had relative success in Chechnya and 
pacified it at the price of killing a lot of people and turning 
people into refugees, the insurgency spread outside of Chechnya 
to other republics of North Caucasus. And now as I mentioned, 
the communities, the so-called Jamaat, the organized Salafi/
Wahhabi communities can be found in Moscow, St. Petersburg, 
Kazan, Siberia, et cetera. Far from being violent in every 
case, they have a great potential for being violent.
    And from our point of view, ungoverned spaces that provide 
safe havens for terrorist organizations where they can train 
and communicate with other groups, the Chechen and other North 
Caucasus fighters that have traveled to Iraq, Afghanistan, now 
in Syria, to take place in global ``jihad,'' and instability in 
the North Caucasus that is affecting our allies in Azerbaijan, 
Georgia, and eventually Armenia, all these make the emergence 
of radicals in North Caucasus as a threat to our interests and 
the interests of our European allies, as North Caucasus is at 
the doorstep of Europe.
    In Central Asia there are two countries that we have to 
work with because these are the most viable and bigger 
countries in terms of population, territory, in terms of having 
the military capacity and counterintelligence, 
counterinsurgency, I am talking about Kazakhstan and 
Uzbekistan. And while Kazakhstan expressed its wish and is a 
part of, a founding member of the Eurasian Union that is 
engineered by Vladimir Putin to be the new federation that is 
covering some or most of the post Soviet space, Uzbekistan 
chose a different path. They have a good relationship with 
China, but they also are reaching out to the United States and 
the West to ask for support, as you, Mr. Chairman, mentioned. 
And I do believe that they are threatened by the Islamic 
movement of Uzbekistan, the Islamic jihad of Uzbekistan by Hizb 
ut-Tahrir, Muslim Brotherhood, et al. As we are leaving 
Afghanistan, the Central Asia will be becoming an area of 
rivalry between Russia and China, between India and Pakistan, 
and as well as Turkey and Iran who are going to be jockeying 
for influence there. And as we saw in Afghanistan, the ISI----
    Mr. Rohrabacher. Could you summarize, because we are going 
to run out of time and the other witnesses may be cut off.
    Mr. Cohen. Yes, sir. Okay. The Pakistani intelligence is 
going to be a player with the bad guys, supporting the bad guys 
such as the Taliban. So in my testimony, which I am requesting 
to be part of the record, I have a list of recommendations that 
I think we can do to improve our relationship in Central Asia 
to work with our allies to control the insurgency in North 
Caucasus and to contain it. And we did not start this war, sir, 
but it is our business to finish this war. We cannot just walk 
off the battlefield and leave the battlefield to the enemies of 
freedom. Thank you so much.
    [The prepared statement of Mr. Cohen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Rohrabacher. Thank you very much, and your full remarks 
will be made part of the record, and I will make sure I get 
them for the airplane. Good airplane reading.

 STATEMENT OF MR. JACOB ZENN, RESEARCH ANALYST, THE JAMESTOWN 
                           FOUNDATION

    Mr. Zenn. Thank you, Congressman Rohrabacher. First I would 
like to focus on the core interest that America has in Central 
Asia, the stabilization of Afghanistan through which 
connectivity to the Central Asian countries is imperative to 
build up Afghanistan's economy so that they can have security 
in the country. The two are mutually reciprocal. Second, we 
need Central Asia to diversify her energy supply, especially 
through Kazakhstan oil and Turkmen gas. Third, for the 
transatlantic relationship, a strong Central Asia can mitigate 
drug trafficking from Afghanistan through Russia to Europe, and 
that is the same drug trafficking networks that enrich the IMU 
and the Taliban. A strong Central Asia independent from Russia 
can also ensure Europe's long-term energy security.
    Fourth, combating international terrorism. Nine-eleven 
occurred from Afghanistan, and there are Central Asian groups 
in those same havens today. These are the same stream of 
militants that attacked the U.S. and Israeli Embassies in 2004 
in Tashkent. We should not assume that because they are busy 
fighting us in Afghanistan today that they have lost sight of 
Central Asia, their homeland. The IMU is moving to to northern 
Afghanistan today, and we should ask whether it is trying to 
reposition itself to reclaim terrorities in Central Asia that 
it had seized in the late 1990s, or whether it is trying to 
disrupt the Northern Distribution Network. Kyrgyz President 
Roza Otunbayeva has said on the 10-year anniversary of 9/11 
that it was NATO's operation against international terrorism in 
Afghanistan that kept Kyrgyzstan ``safe from large-scale 
incursions by Taliban terrorists and other extremist groups.'' 
Threats by militant groups to return to Central Asia backed by 
emperical evidence that the IMU is shifting to northern 
Afghanistan should be taken seriously, and serious engagement 
with Central Asian countries is essential to combat these 
threats.
    Fifth, Central Asia is important for our Iran policies. The 
religious moderation of Central Asian countries is a bulwark 
against Iran theocracy, Hezbollah proxies, as well as Salafism 
coming from the Arab world. Moreover, Central Asia is important 
for keeping all options on the table including dialogue. The 
P5+1 negotiations are taking place in Almaty, Kazakhstan right 
now, and they are the most effective method to pressure Iran on 
nuclear restraint. And if war does ever break out, we will need 
relations with these Central Asian countries to combat them. 
And just as a global leader, the United States cannot afford to 
abandon its friends in Central Asia to Russian and Chinese 
domination. As a global leader, we seek to create a liberal and 
democratic world order and the trajectory of Central Asian 
governments right now is caught between Salafism, the political 
values of Russia and China, and our values, and the younger 
generation prefers our values.
    On the local level, these Central Asian militant groups 
seek to secure their bases in Afghanistan and Pakistan, because 
that is how they can ensure the long-term security. On the 
regional level, they seek to create an Islamic Caliphate in 
Central Asia, which they would call Turkistan, which would 
range from Xinjiang in China through Central Asia to the North 
Caucasus and up to Tartarstan. On the international level, they 
seek the destruction of the American world order and the 
creation of a global Islamic Caliphate that would range from 
al-Qaeda in Islamic Maghreb areas in northwest Africa through 
al-Qaeda in the Arabian Peninsulas areas in Yemen, all the way 
to Central Asia and down to Southeast Asia.
    As documented in my testimony and other Jamestown 
Foundation works, there are groups like the Islamic Movement of 
Uzbekistan, Islamic Jihad Union, newer groups like the 
Turkistan Islamic Party, Jund al-Khilafah, Hizb ut-Tahrir, 
Tablighi Jamaat, who all agree with these aforementioned goals. 
And there are scores of other groups, cells, and brigades that 
militants flow into and out of, but they don't necessarily have 
recognizable names. There are also dozens of Salafist groups 
like Hizb ut-Tahrir that are proven to be a vehicle not only 
for recruitment into more militant groups and for the spread of 
anti-American sentiment but for the funding of militant groups. 
They receive their funding from Saudi Arabia to Salafist groups 
in Central Asia or Russia, who then send funding to the 
militants in Afghanistan.
    Funding also comes from drug trafficking. The IMU has shown 
that even without strong leaders it is able to depend on its 
vassal relationship with the Pakistani Taliban where it can 
receive funds from the Pakistani Taliban and that the Taliban 
can operate as its operational head telling IMU what to do and 
when. It is important to note that the Taliban is Pashtun 
based, and therefore the Taliban will always have limits in 
northern Afghanistan as well as in Central Asia. However, the 
Central Asian militant groups are comprised largely of Central 
Asians who can speak the local languages and who can blend into 
the operational environment there. Therefore, the IMU is a very 
valuable asset for the Taliban.
    This is exactly what al-Qaeda in the Islamic Maghreb did in 
northwest Africa when they are headed by Arab Algerians but 
they used sub-Saharan Africans from Nigeria and other countries 
to infiltrate Nigeria such as Boko Haram. There are significant 
vulnerable regions in Central Asia such as the Fergana Valley 
where ethnic clashes broke out just last month and there were 
more severe ethnic clashes in 2010. The IMU has already seized 
territory in the Rasht Valley in the previous decade, and 
Gorno-Badakhshan, which borders on Afghanistan, is also a 
serious threat. In just recent years, Salafists from the North 
Caucasus have used their influence on western Kazakhstan, where 
we have our oil interests, where they carried out the first 
terrorist attacks in Kazakhstan's history with suicide bombings 
in 2011, and used rocket-propelled grenades to carry out 
attacks in Taraz, a city in southern Kazakhstan.
    Now, for the time being, it is unlikely that the militants 
will be able to overthrow the governments in Central Asia or 
destroy the secular states of Central Asia. But terrorist 
attacks can continue to weaken the Central Asian states which 
are already struggling with political and social problems due 
to the slow transition to market economy and democracy. These 
bombings, armed incursions and outbreaks of insurgency can also 
cost human lives and material destruction. But if the broader 
mission of establishing an Islamic Caliphate in Central Asia is 
to succeed, the militants will have to capitalize on the 
growing public discontent in the region, where many people 
consider governments to be repressive, imcompetent or corrupt. 
As a result, it is in our interest to maintain high level 
contacts with Central Asian governments so we can continue to 
share best practices on democracy as well as use our partners, 
South Korea, Japan, and India, to help educate about democracy 
and to not give up on this region that wants a future 
relationship with the United States.
    Thank you for your time. I welcome any further questions 
you may have on Islamist militant threats to Eurasia.
    [The prepared statement of Mr. Zenn follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Rohrabacher. Well, you got most of it in there, didn't 
you? Okay.
    And we now--Mr. Barrick.

  STATEMENT OF MR. NATHAN BARRICK, STRATEGIC CONSULTANT, CLI 
                           SOLUTIONS

    Mr. Barrick. Chairman Rohrabacher, members of the 
subcommittees, thank you for the opportunity to speak today on 
the Islamist militant threat to Eurasia. I have to emphasize up 
front that my views are my own and they do not represent nor 
reflect the official position of any other organizations that I 
work with. Also I would like to start by clearly stating my 
agreement with the other experts that there are Islamist 
militant groups that threaten the governments in Central Asia. 
I also agree that this is an important regional security issue 
and that the United States should be concerned. Therefore, I 
would desire that my testimony here today not be misconstrued 
as an argument to do less.
    We categorically should not reduce the level of security 
cooperation we have with our partner nations in the region. 
However, I would recommend being judicious in assessing whether 
we ought to be alarmed, and since we are not operating in an 
environment of unconstrained resources, we should also 
carefully calculate whether we need to do more than what we are 
already doing. First, as the Ambassador mentioned, Afghanistan 
will not automatically transition into a safe haven for 
Islamist militants after the withdrawal of International 
Security and Assistance Forces by the end of 2014.
    Within months of ISAF's withdrawal, the militant 
organizations are likely to face strategic choices whether they 
will shift or continue to fight in Afghanistan. Even if they do 
attempt to shift to Central Asia, it is unlikely that their 
entire organizations will be committed to that fight. Central 
Asian militants are much more likely to be focused on assisting 
their militant allies and attempting to garner tactical 
successes locally than to be devoting efforts to attack 
planning in Central Asia. We are likely to have time to 
consider whether Central Asia requires increased assistance 
from us, especially since there is an open question on how much 
international counterterrorist effort will still be dedicated 
to Afghanistan post 2014.
    Which brings me to my second point. The security forces in 
Central Asia have demonstrated effectiveness in preventing and 
responding to militants inside their countries. Indeed, it can 
be argued that without much outside assistance, as Mr. Poe 
mentioned earlier, Uzbekistan, Kyrgyzstan and Tajikistan 
forcibly ejected the Islamic Movement of Uzbekistan out of 
Central Asia and into retirement, even if temporary, or 
Afghanistan in the late '90s and prior to the events of 9/11. 
Since then, these three countries, and Kazakhstan, have 
acknowledged several counterterrorist successes or mitigated 
the consequences of the sporadic attacks that have occurred. We 
should not ignore nor undervalue their own successes.
    An important subpoint must be made as well. The United 
States has had occasion to question the methods our Central 
Asian partners have used in the past decade to respond to 
perceived threats. Specifically, in regards to Uzbekistan, the 
difference in perspectives about Andijon in May 2005 resulted 
in a breach in the bilateral relationship that has not been 
completely reconstructed. United States interests in these 
countries, as senior officials have repeatedly emphasized, are 
addressed on a broad range of policy priorities. These facts 
underscore my firm assertion that we should not do less, but I 
also think it should be taken into close consideration in 
determining if, and how, we provide more security assistance in 
the region.
    Central Asia has been recognized and appreciated by many 
American and European leaders over the past decade for allowing 
passage for logistical support to international forces in 
Afghanistan. However, could Central Asia have done more? I 
think it would be beneficial to hear from these countries 
whether or not, and how much specifically, they believe they 
have benefited from past security cooperation with us before we 
undertook to adjust our security assistance programs in the 
region.
    There are other reasonable considerations to inform our 
decision making, and those must take into account the 
assessments of our military services, unified commanders, and 
intelligence organizations. How much capacity do our Central 
Asian partners have for expanded cooperation? Do specific 
militant groups even have the ability to operate within, or 
project into, Central Asia at a level that exceeds our 
partners' existing capabilities?
    Finally, there is a growing body of academic literature 
assessing that militant Islamist beliefs do not resonate with 
Muslims in Central Asia. Central Asia is not populated by 
Muslims who are just yearning and dying to fight to live in a 
Caliphate. The nature of political and economic conditions in 
Central Asia do indeed serve as a recruiting ground for 
militants, but I want to retiterate that this effect, so far, 
has been driven by political and economic reasons and not 
strictly for religious motivations.
    In the future, if Central Asian governments do not 
effectively implement reforms, the political and economic 
conditions will present those governments with greater security 
and stability challenges. Whether these challenges prompt 
existing leaders to maintain more draconian grips on power or 
their security organizations naturally assess and prepare for 
these threats, there is likely to be a gradual increase in the 
repressive tactics that are a two-edged sword for these 
nations. On the one edge, these governments can argue that 
their security forces have successfully handled threats, but on 
the other sharper edge, as many experts in Western countries 
believe, these security practices may actually further 
facilitate recruitment and stir popular support for the anti-
regime objectives of the militant groups, if not the militants' 
Islamist views.
    In conclusion, it is reasonable to look at Central Asia as 
one place where Islamist militants may turn after Afghanistan 
and Pakistan, if they are in fact able to turn elsewhere. The 
desire in Central Asia for U.S. assistance in countering 
Islamist militants is not the same as a need or a requirement 
for U.S. assistance. There is little argument against 
sustaining the security assistance and cooperative 
relationships we have in Central Asia. However, looking 
forward, the ability of these governments to address the 
militant threat does not appear to require more U.S. 
assistance, and we should leverage this fact in focusing on our 
other policy priorities in the region.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Barrick follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And Dr. Blank? We are going to need you to push a button 
there. Just remember that that uses energy that is produced by 
somebody to get your voice amplified, just to put it in 
perspective.

  STATEMENT OF STEPHEN J. BLANK, PH.D., RESEARCH PROFESSOR OF 
        NATIONAL SECURITY AFFAIRS, U.S. ARMY WAR COLLEGE

    Mr. Blank. Well, I hope it is from California, sir. I thank 
you for the opportunity to speak to the committee and the 
subcommittee. I need to emphasize that my remarks do not 
reflect the views of the Army, Defense Department, or the U.S. 
Government.
    Jihadi or Islamist terrorism is a worldwide phenomenon not 
just confined to Central Asia. We find it, as Dr. Cohen has 
said, in the North Caucasus, in Central Asia, and we have also 
seen evidence of it in Azerbaijan where Iran is attempting to 
sponsor terrorist and insurgent movements against the 
Government of Azerbaijan because of its pro-Western policies. 
At least three plots were uncovered last year by the Azeri 
authorities against Azeri, Israeli, and American citizens and 
interests in Azerbaijan, including the finding of people with 
propaganda and weapons in their possession for such, what you 
might call, to use a Soviet term, agitation and propaganda and 
incitement to terrorism.
    So this is a complex international phenomenon. In the North 
Caucasus we are dealing with a truly jihadi terrorist 
operation, the Caucasus Emirate, which is closely affiliated 
with al-Qaeda, and a subcriber to the ideology of al-Qaeda, and 
which the Russians have had very little success controlling and 
which they have contributed to by pervasive misrule and 
brutality, whereas in Central Asia there is no imminent threat, 
as was stated here earlier. After 2014, the situation becomes 
more cloudy. Most Central Asian and many expert forecasts of 
what will happen in Afghanistan are much more pessimistic than 
what the U.S. Army and Government is saying, and we heard 
already from Congressman Poe that the Uzbeks are particularly 
anxious about the future.
    We can expect after 2014 that there will also be the 
possibility of succession crises or internal upheavals in 
Central Asian states, all of which are authoritarian, most of 
which are badly governed. And those kinds of upheavals could 
open up the door to the kind of political manifestations of 
terrorism we have talked about. As Mr. Barrick has said, 
Central Asia Islam is by no means jihadi, but the political and 
economic conditions of governance there create the potential 
for a mass base or at least a base of recruits who would 
subscribe to those kind of ideologies. Because no other 
political expression has been granted to them, they can only 
express themselves in terms of this vocabulary and this 
political rhetoric. So we have those particular areas in the 
Soviet Union or Eurasia to use a common word, which are 
potential terrorist areas.
    I would like to conclude by talking about the U.S. 
interests here. The Azeri case is one where, I think, vital 
U.S. interests are at risk because Azerbaijan's capacity to 
furnish Europe with energy products and because of its 
importance in the Caucasus and vis-a-vis Iran, make its support 
for Azerbaijan despite its authoritarian government, I would 
argue, a vital interest of the United States Government. Our 
interest in Central Asia has been well articulated in today's 
testimony, but the fact of the matter is that already spending 
on Central Asia for 2012 went down. It is going to go down in 
2013, and presumably, after 2014 it will go down still more 
given the constraints on the U.S. budget and on the U.S. 
military that are now coming into effect.
    Furthermore, the interest of the United States in Central 
Asia has been, as Ambassador Blake has testified previously to 
Congress, fundamentally tied to the war in Afghanistan. As our 
presence in Afghanistan declines so will, I suspect, our 
interest in Central Asia and leaving it open to further 
international rivalry such as is called, The New Great Game, 
other words have been used, between Russia, China to some 
degree, Iran, India and Pakistan, and now Turkey appears to be 
gaining interest in this. So those actors as well as the EU, 
international financial institutions, and the terrorists will 
all be active in Central Asia as we reduce our profile due to 
financial and military constraints.
    In the North Caucasus we are not going to be able to play 
much of a role because the Russians will not allow for anybody 
to come into what is sovereign Russian terrority, and they are 
certainly not in the mood to listen to us about 
democratization, quite the opposite, as we have heard today. So 
it is very likely that this phenomenon, particularly insofar as 
it is connected to misrule and what my colleague, Max 
Manwaring, calls illegitimate governance, is likely to continue 
after 2014, and it is by no means certain that when we have 
left Afghanistan that we will have sufficiently weakened this 
threat to the extent that our partners and allies in Eurasia, 
and for that matter elsewhere, can become complacent. 
Complacency is probably the last thing that we can expect.
    Thank you, and I submit my written testimony to the record.
    [The prepared statement of Mr. Blank follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Rohrabacher. All of your testimony will be made part of 
the record, and I appreciate how difficult it is to get it down 
to 5 minutes or 6 minutes. As you know, I used to be a 
speechwriter for President Reagan, and it was a lot more 
difficult to write these short speeches than it was to write 
the long ones, because you have so much to say that is so 
important. And I think I will be yielding my time for 
questions, and then I will close it out after the other members 
have had their say. But I will yield my time to Mr. Marino.
    Mr. Marino. Thank you, Chairman. Gentlemen, thank you for 
being here. I would like to start with Mr. Barrick, and perhaps 
then Mr. Zenn you could answer the question, and then I have 
two other questions for the other gentlemen.
    Mr. Barrick, you stated that what could be done, what could 
the countries in Central Asia do to assist along the lines that 
the U.S. has been. I was just at a conference in Belgium, a 
NATO conference, and quite a few of the countries keep looking 
to the U.S. to do more and more. Do you have an insight on what 
Central Asia has done and what more they could do, and how?
    Mr. Barrick. Yes, thank you for your question, Mr. Marino. 
As Ambassador Blake mentioned earlier, the support that Central 
Asia has provided for the Northern Distribution Network has 
been vital for the forces there. In my reference to what they 
could have done more, I think that relationships have also been 
very difficult in terms of when we look at Uzbekistan, when we 
look at the negotiations over basing, when we stress that our 
presence in the region is going to be temporary. And during the 
trip, Mr. Rohrabacher and Mr. Poe both mentioned the concerns 
that Uzbekistan has expressed about Afghanistan. But it is 
interesting that there are no Uzbekistan troop contingents 
supporting ISAF. And that is primarily what I have in mind, is 
that despite their concerns there was not an initiative for 
them to support militarily the effort of ISAF in Afghanistan. I 
think that is one question that they should answer in terms of 
how concerned are they, really. Secondly, they could have been 
more inviting in terms of allowing international forces to 
assist along their borders if they were concerned, and I don't 
think that that is something that they are interested in.
    Mr. Marino. Thank you.
    Mr. Zenn, do you have anything to add to that, sir?
    Mr. Zenn. I would simply add that I think what they could 
have done for us is to work better on their political 
transition in the upcoming years, political liberalization, 
because ultimately, at the end of the day the militant groups 
will seize on political instability, overly centralized 
governments, in order to try to attract people that are 
disaffected from the country into their cause.
    Mr. Marino. Right. Thank you. Dr. Blank, and then Dr. Coen, 
and we are probably going to get buzzed here to go vote 
shortly, so I have about, a little more than 2 minutes. What 
are Russia and China's interest, and are they seriously 
concerned with terrorist attacks against the U.S.?
    Mr. Blank. Both Russia and China individually seek to 
create a block of space in Central Asia integrated around their 
economies, each one supporting the geopolitical interests of 
Russia and China and preventing Islamic terrorism from gaining 
a foothold either in Central Asia or Russia proper, in the 
Russian case, or in Central Asia and Xinjiang, in particular, 
in the Chinese case. Their concern is not so much with U.S. 
terrorism as with the fact that Afghanistan could become a base 
for this kind of terrorism, and they have supported our 
military effort there.
    But as we described earlier, their support has been 
ambivalent and self-serving. Russia supports the NDN but, 
frankly, wants us out of Central Asia as soon as possible, and 
if we stay in Afghanistan they want us to coordinate all our 
moves there with Russia, essentially giving Russia a prior 
right of veto or regard over our activities. China has been 
less overt in what it wants from the U.S. in the future, but I 
would suspect that the Chinese do not want to see us in Central 
Asia and are concerned about Islamic terrorism in Afghanistan 
and Pakistan, but they are prepared to invest a reasonable 
amount of money in Afghanistan. And they are also, I think, 
counting on their ability to discipline Pakistan in order to 
prevent that from happening in their frontier as well as their 
own bilateral ties with the Central Asian and the Russians. So 
that is how I would answer that question.
    Mr. Marino. Thank you.
    Dr. Cohen?
    Mr. Cohen. Thank you, Mr. Marino. I think there is one 
issue that nobody talks about and nobody publishes about, and 
that is that there is an institutional connection between the 
Government of China and the Government of Pakistan. And that 
connection cannot ignore or cannot be divorced of the ISI and 
the ISI's role, not just in support of the Taliban, but also in 
support of other terrorist radical Islamic organizations in the 
region. And looking at the battlefield past 2014, if I was an 
Uzbek or if I was a Kyrgyz, I would be really worried about how 
weakening the terrorist activities of the Pakistan supported 
groups are going to be at the same time when China is moving 
massively, economically, into Central Asia and outsourcing 
security to Russia.
    The Chinese, for the next short term, short term being 30 
years, don't care about security. They are happy to make a buck 
or a yuan in Central Asia, leaving the security to the worries 
of the Russians. But year after year, if you compare economic 
statistics, the Chinese beat the Russians in the economic 
battlefield in Central Asia. And what we see, yes, Stephen is 
right. There is an understanding between Moscow and Beijing 
that they don't want us in Central Asia, but at the same time, 
what you really see is evidence of increasing economic 
competition in natural resources, energy, and other areas 
between Moscow and Beijing.
    Mr. Marino. Thank you, sir. And I yield back.
    Mr. Rohrabacher. Thank you very much. And now, Mr. Keating, 
and then I will do the follow-up. We have got 15 minutes before 
a vote, so it is working out just right.
    Mr. Keating. We don't want to bring you back or have you 
stay until after vote, so I will just try and be brief. The one 
thing I heard from all our panelists, both panelists, has been 
don't overlook the potential that is there. Let us learn from 
our other lessons in Central Asia. And that just isn't limited 
to our self-interest in using that region as we exit 
Afghanistan, it is far deeper than that. I think the fact that 
we had this hearing today will demonstrate that we have a great 
concern in that regard and that is something that we don't want 
to see overlooked.
    I think the other area of agreement, the only shades of 
difference I might see, one of timing. I noticed that, and it 
is my own thoughts as well, that the first thing in the area 
that we will, and I think Mr. Barrick mentioned this clearly, 
is the economic concerns might not lead us, the failure of 
developing those and having that area become vital economically 
might trump the need to deal with some of the military concerns 
and the terrorist concerns afterwards. But we have to be 
vigilant as that goes on. It can't just wait to see if that 
happens. That is where some of the other comments were.
    With all that being said, we started to talk about China, 
Russia, the U.S. economically, and particularly how China uses 
Xinjiang to represent their interests as well. We have talked 
about the areas of disagreement and Russia not wanting us in. 
Can you find, any of you, can you find areas where there can be 
points of agreement in that respect? I haven't heard any of the 
potential for that from any interest. I will leave that as my 
only question, and you can all have the chance to answer it.
    Mr. Barrick. I will start on that. I think when we look at 
it, one of the organizations that has tried to address this 
area regionally, includes Russia, China, and most of Central 
Asia, is the Shanghai Cooperation Organization, and they are 
focused on economic development. The problem inside Central 
Asia, and this addresses another part of what Mr. Marino was 
asking, what can Central Asia do more is cooperate better with 
each other in terms of how they work both in security and in 
economics. And for us when we look at this region, this region 
is bounded Russia, China, Iran, and India, Pakistan, and when 
we look at economic integration being something that can 
provide stability and support in this region, it involves all 
four of those corners working together and cooperatively with 
us. And given even our own difficulties and the broader range 
of issues that we have with these countries, it shows how 
difficult and complex it is. But I still believe economics and 
trade is one place where they can find agreement.
    Mr. Blank. I respectfully disagree, because all the 
evidence shows that there is very little regional cooperation 
among Central Asian states. Uzbekistan, for example, is 
distinguished by the frequency of incidents of economic 
warfare, to use the right term, that it has conducted against 
its neighbors like Kyrgyzstan and Tajikistan, too many 
incidents to name here in the time allowed. Russia and China 
are competing economically. They are not cooperating 
economically, they are competing for energy and for 
infrastructure investments.
    China has its own Silk Road project, essentially, which is, 
to be honest, probably more far advanced than ours is and much 
further advanced in Central Asia than India's investments. 
India has just been a dime late in the day short, a dime short 
and a day late in Central Asia and continues to be so. As our 
investment goes down this is going to become all the more 
evident. So I am rather skeptical about the feasibility, even 
though I think it is desirable for such grand schemes to take 
place, because the facts on the ground work against it. 
Regional cooperation is limited in its extent. The amounts of 
money that are required for investment in order to sustain this 
are astronomical, and they are certainly beyond our capability. 
And the Central Asian governments themselves do not cooperate. 
Even when they give aid to Afghanistan it is often on rather 
unfortunate terms that they do. So it is a much more clouded 
picture unfortunately.
    Mr. Keating. There is 20 seconds left, Dr. Cohen. Go ahead.
    Mr. Cohen. If I may, on security. There is, on the basic 
level, the desire to prevent these governments from collapsing 
and being replaced by Islamist radicals, and that is the desire 
of Beijing, Moscow, and Washington. So that is a starter. On 
economic side, the corruption, expropriation of businesses, 
including of some Western interests in Uzbekistan and 
elsewhere, is such that there will be no Western investment to 
speak of until such time as the rule of law, good governance, 
and transparency are improved. It is not impossible. Kazakhstan 
did it to a certain extent. There is place to improve, even in 
Kazakhstan, but Kazakhstan in comparison got so much more, by 
orders of magnitude more foreign investment, especially in the 
energy sector. And there should be no reason why the Tajiks, 
the Kyrgyz, the Uzbeks will not get the same kind of 
investment.
    China, on the other hand, is willing to barge in with 
massive investment for railroads, for highways, for mines, 
dealing with governments, tete-a-tete, directly with the 
governments. This puts us at the disadvantage. So not only are 
the Chinese eating Russia's lunch, they are eating our 
businesses' lunch.
    Mr. Keating. Yes, they are state capitalism. Thank you very 
much. I yield back.
    Mr. Rohrabacher. I would like to thank the witnesses, just 
a few questions on my part. One note that the Shanghai 
Cooperation Organization has in its language in its own charter 
that one of their major reasons it was created was to stop what 
they call splitism, meaning self determination of various 
peoples who don't want to live with the borders that were given 
to them by some dictatorship somewhere or some colonial power. 
Isn't this, when you think of that then, doesn't that put the 
Chinese, how you say, insertion into this area in a much more 
honest light?
    Mr. Blank. Well, the campaign against splitism unites all 
the members because each one of these states has minorities in 
them, and they are all extremely sensitive to the question of 
their territorial integrity. And this is, of course, one of the 
most fundamental questions in international relations globally. 
It is not just Central Asia, it is Africa, for example, and up 
until World War II it was Europe. And there are still areas of 
Europe in the '90s, like Yugoslavia, where we had this kind of 
problem. So they are all determined to preserve the state that 
they presently have within the borders that have been set up 
over time and are now recognized with them as international 
borders.
    That does mean that the borders have not been changed. 
China has been able to basically compel some of the Central 
Asian states to cede territories to them by virtue of China's 
economic power over them in the last several years. Tajikistan 
is one example, Kyrgyzstan another, and those are the two 
weakest states.
    Mr. Rohrabacher. Well, Chinese occupation of Tibet has 
something to do with getting people to acknowledge that they 
are under Chinese rule as well. I mean Tibet was a sovereign 
country at one time and----
    Mr. Blank. But Tibet is not part of Central Asia, so I did 
not mention it.
    Mr. Rohrabacher. Okay. Well, let me ask this about Turkey. 
There is a country we haven't mentioned yet, let us just do a 
real quick down the line. Is Turkey playing a positive role 
now? Has there been a shift? As we know, Turkey has become more 
Islamic in the last 10 years, has that been bad? Has that been 
something that visually we can see that it is taking Turkey 
away from the positive role that we believe it has played 
before? But you have only got 15 seconds for comment.
    Mr. Cohen. The quick answer is yes. It has been perceived 
by the governments in Central Asia, first and foremost by 
Uzbekistan, as a negative. They kicked out the Gulen movement 
to a school system, and others are very nervous about the same 
Gulen movements school system. They do not want more 
Islamization at home. These are post Soviet par excellence 
secular regimes.
    Mr. Rohrabacher. So Turkey, in the last number of years as 
it has shifted toward a more Islamic statement, national 
statement that is actually identifiable in Central Asia and has 
had an impact in its relation there.
    Mr. Zenn?
    Mr. Zenn. Thanks. I would add that Turkey has very close 
linguistic, ethnic, cultural and religious links to Central 
Asia, so it is capable of having influence in the region. It is 
also capable of being a bridge for us to incorporate Central 
Asian countries into Western institutions since Turkey is 
incorporated into Western institutions. At the same time it has 
played a positive role with many educational institutions.
    Mr. Rohrabacher. We know those things, but we also know 
that Turkey has been going toward a more Islamic direction.
    Mr. Zenn. The question is, in the future if Turkey 
continues to move in a more Islamic direction then this could 
relate to more Islamist schools in Central Asia as well, so 
that would be a cause of concern.
    Mr. Cohen. Prime Minister Erdogan just last month announced 
that he would like to see Turkey joining the Shanghai 
Corporation Organization. And I had an article in the National 
Interest about that basically critizing the Prime Minister. 
With all due respect, if he wants to be in NATO and the 
European Union, he is in NATO, if he wants to be in the 
European Union, you cannot dance on two weddings.
    Mr. Rohrabacher. Mr. Barrick?
    Mr. Barrick. And I would say in response to that that part 
of Turkey's interest in the Shanghai Cooperation Organization 
may have been the lack of development in terms of membership in 
the EU. Turkey historically wanted to have a greater role in 
Central Asia when it became independent of the Soviet Union, 
but I think in their initial approaches in trying to be a big 
brother and to capitalize on the connections that Mr. Zenn 
emphasized, they didn't play it right. And they stepped on toes 
and they did not develop those relationships very well. In 
2005, in Kyrgyzstan, it was Turkish businesses that were looted 
and damaged in some of the rioting. I think they are cautious 
about how quickly they want to get back into Central Asia. And 
just like our businessmen have concerns about the environment, 
so do the Turkish businessmen.
    Mr. Blank. That is true, but nonetheless, one can discern a 
rising tide of Turkish investment in Central Asia as Turkey's 
economy grows. The question of whether or not they really want 
to be members of the SCO is open, but they have certainly 
upgraded their profile, moving to become a dialogue partner, if 
not an observer, of the SCO in the last few years. So I would 
say the jury is still out to what extent Turkey can play a role 
in Central Asia, and if it continues to resume the movement 
toward democracy that we did see some time in the last decade, 
it could provide a model of a state that is at once Islamic but 
yet democratic that would be encouraging, I think, to many of 
us. But as I said, this all remains to be seen. I think we are 
at a very early stage here.
    Mr. Rohrabacher. I agree with that. If we see this balance 
maintained so that you have more--people forget that Turkey did 
have a dictatorship, a military dictatorship basically for 
decades, and now as it is becoming more democratic and the 
government does reflect the Islamic nature of its people, as 
long as that is done in a balanced way and that they recognize 
that radical Islam is an enemy of real democracy because it is 
an enemy of human rights, we will see how that all plays out 
with Turkey. I think that will be evident as we move forward 
and we see what groups they try to ally themselves with in 
terms of Central Asia, et cetera.
    Again, one just last note and then I am going to let Judge 
Poe close off the hearing with his comments and questions, 
whatever he has. He will have the last 5 minutes. Let me just 
note that I think it is vital that we make sure that, number 
one, we stick by our friends. That is why I am pushing Dr. 
Afridi. It is so important for us not to let someone who is 
such a hero who helped bring to justice this mass murderer of 
Americans, Osama bin Laden, it is so important for us not to 
let him, not to abandon people who side with us, so that people 
won't be afraid to step up and be our friend and side with the 
democratic forces, knowing they are not going to be left 
hanging out on a limb.
    With that said, I see two major forces that we need to 
bring to play, and if nowhere else their influence should be 
brought to play in Central Asia in order to prevent the spread 
of radical Islam. Because A, a massive increase in the number 
of countries that are under the influence of radical Islamic 
dictatorships or Islamofascism as it has been called, would be 
catastrophic especially if those countries were the core of 
Central Asia. And the two countries we need to work with us in 
that endeavor, not only the local countries and local people 
involved, but Russia and India. Those are two forces that can 
play an important role, and I think it is incumbent upon us to 
reach out and try to be as cooperative with those two powers as 
we possibly can.
    And with that I will leave that sentiment on the table, and 
I will let Judge Poe close out the hearing with his questions 
or his final statement.
    Mr. Poe. Thank you, Mr. Chairman, and thanks again for 
being here. I think the world is having to deal with what was 
sown many years ago when different entities, the Europeans 
primarily, got out a red pen and started redrawing the world's 
map and making new countries and moving traditional boundaries 
in Asia and Central Asia. All of a sudden that conflict is 
having to be dealt with, with the different countries in 
Central Asia as well. That is just my opinion.
    I want to go back to something that was talked about in the 
first panel. Mr. Marino brought it up, and I would like for you 
gentlemen to be a little more specific, if you can, on the 
issue of money. It is all about money. Everything is, it seems. 
But the terrorist groups, they get their money from somebody or 
someplace. Not just al-Qaeda and the Taliban, but IMU and the 
IJU, they need money to operate. Where do they get their money? 
Who gives it to them? Does any of that money come from actual 
governments, and what can we do to prevent the money train? So 
it is about money. You can weigh in on it. That is my only 
question. We can start with Dr. Cohen.
    Mr. Cohen. Judge Poe, I think this is an excellent 
question, and our Treasury is doing a pretty good job tracking 
the money flows for sort of traditional al-Qaeda because that 
is where the priority was. Central Asia was not necessarily 
always on the radar screen. But as someone who does not have 
access to classified information but who talks to people from 
the region regularly and visits the region, I would say there 
are two sources. One is the donations, the so-called Zakat, the 
traditional Islamic charity that comes from the Gul,f including 
Saudi and the Gulf states, Qatar, Kuwait, et cetera. The second 
source is drug trafficking, both in terms of growing, in terms 
of refining, and even more so in terms of trafficking the 
Afghan poppy products, heroin, opium, et cetera.
    So you have for the U.S. Government both the Treasury track 
to intercept the flow of money from the Gulf, the State 
Department track to put more pressure on our friends, the 
governments in the Gulf, to prevent private foundations and 
individuals from financing the jihad, as they call it, in 
Central Asia, but also for our DEA and other law enforcement 
agencies to train and cooperate with the governments in the 
region. The problem is, some of those governments, like 
Tajikistan, are known to be very corrupt, and individuals in 
those governments are known to be deeply involved in drug 
trafficking. So we have a problem right there.
    Russia was loudly protesting our drug policy in 
Afghanistan, calling for crop erradication, for spraying the 
crops and destroying the crops. That would probably increase 
the ranks of the Taliban by 1 million or a couple of million 
peasants whose crops were destroyed. So our policy in 
Afghanistan was to destroy the labs and try to intercept the 
traffickers. It was not efficient enough and the Russians 
walked away from a cooperation agreement of combating drugs. 
Unfortunately I must say as a lifelong Russia watcher, the 
Russian drug enforcement is not without a blemish. It has some 
corruption, some serious corruption in it as well.
    Mr. Poe. No kidding.
    Mr. Cohen. So our options are limited, but we need to work 
both on the drug track and on the Gulf track, and to the extent 
we can watch, the Pakistani track and other countries outside 
of the Middle East who may also provide funds, including by the 
way some of the Muslim diasporas in places like London, or in 
places like Dearborn, who may provide some donations for this 
so-called jihad in----
    Mr. Poe. Let me reclaim my time, because there are three 
other folks I would like to get to weigh in on this. Mr. Zenn, 
specifically Pakistan helping supply money to the Taliban, what 
do you think?
    Mr. Zenn. Yes, I think Pakistan would help supply money to 
the Taliban. There is close relations between the Pakistan and 
Taliban, that is historical. And then the next bridge is that 
the Taliban has very close ties to the Islamic Movement of 
Uzbekistan, which is the largest Central Asian militant group. 
In fact, the IMU is like a vassal to the Taliban. They operate 
together. They are allies. So any money that gets to the 
Pakistani Taliban will ultimately get to the IMU as well and a 
bunch of other Central Asian militant groups that can help the 
Taliban pursue its objectives in Central Asia. And then there 
is a large stream of networks between Salafists in Central 
Asian home countries or even in Russia or even in the Gulf that 
send money to Salafist-jihadists in Afghanistan itself.
    Mr. Poe. So it is not unreasonable that the United States 
gives a lot of money to Pakistan, a lot, billions, military and 
supposedly, just foreign aid. That some of that money goes to 
the government and they in turn give that to the Talibanis, as 
I call them, and that ends up going into their coffers fighting 
against Americans in Afghanistan. Is that something that just 
might be going on?
    Mr. Zenn. I don't think it is unreasonable to say that 
money from the Pakistan Government in some way gets to some 
members of the Taliban who then pursue Pakistan's objectives in 
Afghanistan, which involve the Taliban and Afghanistan. And 
then the Taliban in Afghanistan has its objectives against the 
Americans.
    Mr. Poe. Just a couple quick answers for the last two. Go 
ahead, gentlemen.
    Mr. Barrick?
    Mr. Barrick. Yes, I concur with Dr. Cohen's description of 
how the militant groups get their funding. I would also like to 
address Mr. Rohrabacher's comment on friends. And I think we 
should treat our friends carefully. And what we need to be 
careful of is that we have relationships with China, Russia, 
and India, and we should be wary that they don't place us in a 
situation where they seek to trade their interests in the 
region for ours, because we have more important interests 
elsewhere, and that we then disappoint friends that are relying 
on us.
    Mr. Poe. Dr. Blank, last comment? Let us hear him.
    Mr. Blank. To address your question, Congressman Poe, I 
agree with my colleagues about the sources of support for the 
Taliban, and for that matter for the North Caucasus, which is 
the really most violent of all these terrorist movements inside 
the former Soviet Union right now, the most active. Every day 
there are incidents in the North Caucasus and in the heartland 
of Russia. Finally, there is Iran. Now we know that Iran is a 
state sponsor of terrorism. We know that they are sponsoring 
insurgent and terrorist groups in Azerbaijan. We also know that 
they were sponsoring groups in Afghanistan. So those groups are 
getting support including funding from Iran and probably the 
IRGC or the MOIS, which is Iranian intelligence. So again it 
depends on which terrorist group you are talking about. And the 
sources of funding are generally very secret, deeply buried, 
multiple, and very often tied up with criminal networks of one 
sort or another.
    Mr. Rohrabacher. Thank you very much. And I think that, 
Your Honor, would you like to have a 1-minute summary?
    Mr. Poe. No, thanks, Mr. Chairman. It has all been said. 
Thank you very much. Everybody has said it.
    Mr. Rohrabacher. All right. Well, I thank the witnesses and 
thank all of you, thank the staff for putting together this 
hearing today, and with that said, this hearing is adjourned.
    [Whereupon, at 3:23 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
